  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


          BRAVO HEALTH
       PENNSYLVANIA, INC.
(CONTRACT H3949), SUBMITTED MANY
  DIAGNOSES TO THE CENTERS FOR
MEDICARE & MEDICAID SERVICES THAT
  DID NOT COMPLY WITH FEDERAL
        REQUIREMENTS FOR
       CALENDAR YEAR 2007
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                      September 2013
                                                       A-03-09-00003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Under the Medicare Advantage (MA) program, the Centers for Medicare & Medicaid Services
(CMS) makes monthly capitated payments to MA organizations for beneficiaries enrolled in the
organizations’ health care plans. Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act
require that these payments be adjusted on the basis of the health status of each beneficiary.
CMS uses the Hierarchical Condition Category (HCC) model (the CMS model) to calculate
these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. MA organizations identify the diagnoses relevant to the CMS model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs and demographic characteristics to calculate a risk score for
each beneficiary. CMS uses the risk scores to adjust the monthly capitated payments to MA
organizations for the next payment period.

Bravo Health Pennsylvania, Inc. (Bravo), is an MA organization. (In November 2010, after our
draft report, Bravo was acquired by HealthSpring, Inc. On January 31, 2012, HealthSpring, Inc.
was acquired by the Cigna Corporation.) For calendar year (CY) 2007, Bravo had multiple
contracts with CMS, including contract H3949, which we refer to as “the contract.” Under the
contract, CMS paid Bravo approximately $194 million to administer health care plans for
approximately 13,755 beneficiaries.

OBJECTIVE

Our objective was to determine whether the diagnoses that Bravo submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements.

SUMMARY OF FINDINGS

The diagnoses that Bravo submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. The risk scores calculated using the diagnoses that
Bravo submitted for 35 of the 100 beneficiaries in our sample were valid. The risk scores for the
remaining 65 beneficiaries were invalid because the diagnoses were not supported for 1 or more
of the following reasons:

   •   The documentation did not support the associated diagnosis.

   •   The documentation did not include the provider’s signature or credentials.

   •   Bravo did not provide any documentation to support the associated diagnosis.




                                                  i
Bravo did not review the diagnosis codes received from providers before submitting the codes to
CMS and therefore could not ensure that the diagnoses submitted to CMS complied with Federal
requirements.

As a result of these unsupported diagnoses, Bravo received $422,409 in overpayments from
CMS. On the basis of our sample results, we estimated that Bravo was overpaid approximately
$22,108,905 in CY 2007.

RECOMMENDATIONS

We recommend the following:

   •   Bravo should refund to the Federal Government $422,409 in overpayments identified for
       the sampled beneficiaries.

   •   Bravo should work with CMS to determine the correct contract-level adjustment for the
       projected $22,108,905 of overpayments. (This amount represents our point estimate.
       The confidence interval for this estimate has a lower limit of $17.4 million and an upper
       limit of $26.9 million.)

   •   Bravo should modify its policies and procedures and improve its practices to ensure
       compliance with Federal requirements.

BRAVO COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Bravo said that our sample approach and limited review
were flawed; cited a disconnect between our audit and CMS’s guidance and requirements; and
suggested that we evaluate our audit process, existing and proposed CMS guidance, and Bravo’s
responses, including additional documentation. Bravo also stated that we did not account for
error rates inherent in Medicare fee-for-service (FFS) data, specifically the disparity between
FFS claim data and FFS medical records data and its potential impact on MA payments. In
addition, Bravo described actions it has taken since the 2006 audit period and stated that it would
continue to evaluate its policies and procedures for improvements consistent with CMS
requirements.

Bravo disagreed with our assessment in the draft report that several HCCs were not supported by
the medical record and supplied additional information. We reviewed all information that Bravo
provided and submitted any new information to our medical review contractor. To the extent our
medical review contractor found support in this additional information, we revised our findings
using the results of this medical review.

Although an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. Therefore, because of the potential
impact of these error rates on the CMS model that we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have Bravo refund only the


                                                ii
overpayments identified for the sampled beneficiaries rather than refund the estimated
overpayments and (2) added a recommendation that Bravo work with CMS to determine the
correct contract-level adjustments for the estimated overpayments.

We did not initially accept physician signature attestations. However, because Federal
regulations regarding signature attestations changed in 2010, we accepted the signature
attestations and revised our findings as applicable.




                                               iii
                                                 TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicare Advantage Program ...........................................................................1
              Risk-Adjusted Payments ....................................................................................1
              Federal Requirements ........................................................................................1
              Bravo Health Pennsylvania, Inc. ........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

          FEDERAL REQUIREMENTS ......................................................................................5

          UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES ...........................6
               Unsupported Diagnosis Coding .........................................................................6
               Missing Signatures and Credentials ...................................................................6
               No Documentation Provided .............................................................................6

          CAUSE OF OVERPAYMENTS ...................................................................................7

          ESTIMATED OVERPAYMENTS ...............................................................................7

          RECOMMENDATIONS ...............................................................................................7

          BRAVO COMMENTS AND OFFICE OF INSPECTOR
           GENERAL RESPONSE .............................................................................................8
              Physician Signatures and Credentials ................................................................8
              One Best Medical Record ..................................................................................9
              Disregard of Other Hierarchical Condition Categories ...................................10
              Communication Issues .....................................................................................10
              Random Sample and Extrapolation .................................................................11
              Limitations on the Risk Adjustment Payment and Validations .......................12
              Responses to Individual Findings ....................................................................12

          OTHER MATTERS.....................................................................................................13




                                                                    iv
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: DOCUMENTATION ERRORS IN SAMPLE

    D: BRAVO COMMENTS




                               v
                                             INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
revised Medicare Part C and renamed it the Medicare Advantage (MA) program. Organizations
that participate in the MA program include health maintenance organizations, preferred provider
organizations, provider-sponsored organizations, and private fee-for-service (FFS) plans. The
Centers for Medicare & Medicaid Services (CMS), which administers the Medicare program,
makes monthly capitated payments to MA organizations for beneficiaries enrolled in the
organizations’ health care plans (beneficiaries).

Risk-Adjusted Payments

Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act require that payments to
MA organizations be adjusted based on the health status of each beneficiary. In calendar year
(CY) 2004, CMS implemented the Hierarchical Condition Category (HCC) model (the CMS
model) to calculate these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. 1 MA organizations identify the diagnoses relevant to the CMS model
and submit them to CMS. CMS categorizes the diagnoses into groups of clinically related
diseases called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a
risk score for each beneficiary. CMS uses the risk scores to adjust the monthly capitated
payments to MA organizations for the next payment period. 2

Federal Requirements

Regulations (42 CFR § 422.310(b)) require MA organizations to submit risk adjustment data to
CMS in accordance with CMS instructions. CMS issued instructions in its 2007 Risk Adjustment
Data Training for Medicare Advantage Organizations Participant Guide (the 2007 Participant
Guide) that provided requirements for submitting risk adjustment data for the CY 2007 data
collection period. CMS had issued similar instructions in its 2006 Risk Adjustment Data Basic
Training for Medicare Advantage Organizations Participant Guide (the 2006 Participant Guide).



1
 Risk adjustment data also include health insurance claim numbers, provider types, and the from and through dates
for the service.
2
 For example, CMS used data that MA organizations submitted for the CY 2006 data collection period to adjust
payments for the CY 2007 payment period.

                                                        1
Diagnoses included in risk adjustment data must be based on clinical medical record
documentation from a face-to-face encounter; coded according to the International Classification
of Diseases, Ninth Revision, Clinical Modification (ICD-9-CM) (the Coding Guidelines);
assigned based on dates of service within the data collection period; and submitted to the MA
organization from an appropriate risk adjustment provider type and an appropriate risk
adjustment physician data source. The 2006 and 2007 Participant Guides described requirements
for hospital inpatient, hospital outpatient, and physician documentation.

Bravo Health Pennsylvania, Inc.

Bravo Health Pennsylvania, Inc. (Bravo), is an MA organization. 3 For CY 2007, Bravo had
multiple contracts with CMS, including contract H3949, which we refer to as “the contract.”
Under the contract, CMS paid Bravo approximately $194 million to administer health care plans
for approximately 13,755 beneficiaries.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the diagnoses that Bravo submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements.

Scope

Our review covered approximately $72 million of the CY 2007 MA organization payments that
CMS made to Bravo on behalf of 5,234 beneficiaries. These payments were based on risk
adjustment data that Bravo submitted to CMS for CY 2006 dates of service for beneficiaries who
(1) were continuously enrolled under the contract during all of CY 2006 and January of
CY 2007 4 and (2) had a CY 2007 risk score that was based on at least one HCC. We limited our
review of Bravo’s internal control structure to controls over the collection, processing, and
submission of risk adjustment data.

We asked Bravo to provide us with one medical record that best supported the HCC(s) that CMS
used to calculate each risk score. If our review found that a medical record did not support one
or more assigned HCCs, we gave Bravo the opportunity to submit an additional medical record
for a second medical review.

We performed our fieldwork at Bravo’s offices and at CMS in Baltimore, Maryland, from
December 2008 through December 2009.



3
 Bravo’s offices are located primarily in Baltimore, Maryland. In November 2010, after our draft report, Bravo was
acquired by HealthSpring, Inc. On January 31, 2012, HealthSpring, Inc., was acquired by the Cigna Corporation.
4
 We limited our sampling frame to continuously enrolled beneficiaries to ensure that Bravo was responsible for
submitting the risk adjustment data that resulted in the risk scores covered by our review.

                                                        2
Methodology

To accomplish our objective, we did the following:

    •    We reviewed applicable Federal laws, regulations, and guidance regarding payments to
         MA organizations.

    •    We interviewed CMS officials to obtain an understanding of the CMS model.

    •    We obtained the services of a medical review contractor to determine whether the
         documentation that Bravo submitted supported the HCCs associated with the
         beneficiaries in our sample.

    •    We interviewed Bravo officials to gain an understanding of Bravo’s internal controls for
         obtaining risk adjustment data from providers, processing the data, and submitting the
         data to CMS.

    •    We obtained enrollment data, CY 2007 beneficiary risk score data, and CY 2006 risk
         adjustment data from CMS and identified 5,234 beneficiaries who (1) were
         continuously enrolled under the contract during all of CY 2006 and January of CY 2007
         and (2) had a CY 2007 risk score that was based on at least 1 HCC.

    •    We selected a simple random sample of 100 beneficiaries with 304 HCCs. (See
         Appendix A for our sample design and methodology.) For each sampled beneficiary, we:

             o    analyzed the CY 2007 beneficiary risk score data to identify the HCC(s) that
                  CMS assigned;

             o    analyzed the CY 2006 risk adjustment data to identify the diagnosis or diagnoses
                  associated with the beneficiary’s HCC(s) that Bravo submitted to CMS;

             o    requested that Bravo provide us one medical record that, in Bravo’s judgment,
                  best supported the HCC(s) that CMS used to calculate the beneficiary’s risk score;

             o    obtained Bravo’s certification that the documentation provided represented “the
                  one best medical record to support the HCC”; 5 and

             o    submitted Bravo’s documentation and HCCs for each beneficiary to our medical
                  review contractor for a first medical review and requested additional


5
  The 2007 Participant Guide, sections 7.2.3 and 7.2.3.1, and the 2006 Participant Guide, sections 8.2.3 and 8.2.3.1,
require plans to select the “one best medical record” to support each HCC and indicate that the best medical record
may include a range of consecutive dates (if the record is from a hospital inpatient provider) or one date (if the
record is from a hospital outpatient or physician provider). Although we requested one best medical record, Bravo
submitted full medical records, and the medical reviewer reviewed the records provided.


                                                          3
                   documentation from Bravo for a second medical review if the contractor found
                   that documentation submitted during the first round did not support the HCCs.

    •       For some of the draft report findings with which it disagreed, 6 Bravo provided additional
            documentation and/or information, which we submitted to our medical review contractor
            for a third review.

    •       For the sampled beneficiaries that we determined to have unsupported HCCs, we (1) used
            the medical review results to adjust the beneficiaries’ risk scores, (2) recalculated
            CY 2007 payments using the adjusted risk scores, and (3) subtracted the recalculated
            CY 2007 payments from the actual CY 2007 payments to determine the overpayments
            and underpayments CMS made on behalf of the beneficiaries.

    •       We estimated the total value of overpayments based on our sample results. (See
            Appendix B for our sample results and estimates.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

The diagnoses that Bravo submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. The risk scores calculated using the diagnoses that
Bravo submitted for 35 of the 100 beneficiaries in our sample were valid. The risk scores for the
remaining 65 beneficiaries were invalid because the diagnoses were not supported for 1 or more
of the following reasons:

        •    The documentation did not support the associated diagnosis.

        •    The documentation did not include the provider’s signature or credentials.

        •    Bravo did not provide any documentation to support the associated diagnosis.

Bravo did not review the diagnosis codes received from providers before submitting the codes to
CMS and therefore could not ensure that the diagnoses submitted to CMS complied with the
requirements of the 2007 and 2006 Participant Guides.

As a result of these unsupported diagnoses, Bravo received $422,409 in overpayments from
CMS (Appendix B). On the basis of our sample results, we estimated that Bravo was overpaid
approximately $22,108,905 in CY 2007.
6
 Of the 93 HCCs for which Bravo disagreed with our assessment, we accepted physician signature attestations on
32 HCCs and submitted 14 HCCs for a third medical review. However, some of the HCCs had more than one error.
We were therefore able to validate only 22 additional HCCs.

                                                      4
FEDERAL REQUIREMENTS

Regulations (42 CFR § 422.310(b)) state: “Each MA organization must submit to CMS (in
accordance with CMS instructions) the data necessary to characterize the context and purposes
of each service provided to a Medicare enrollee by a provider, supplier, physician, or other
practitioner. CMS may also collect data necessary to characterize the functional limitations of
enrollees of each MA organization.” The 2007 Participant Guide, section 8.7.3, and the 2006
Participant Guide, section 7.7.3, state that “MA organizations are responsible for the accuracy of
the data submitted to CMS.”

Section 2.2.1 of the 2007 and 2006 Participant Guides states that risk adjustment data submitted
to CMS must include a diagnosis. The 2007 Participant Guide, section 7.1.4, and the 2006
Participant Guide, section 8.1.3, state that the diagnosis must be coded according to the Coding
Guidelines. Section III of the Coding Guidelines states that for each hospital inpatient stay, the
hospital’s medical record reviewer should code the principal diagnosis and “… all conditions
that coexist at the time of admission, that develop subsequently, or that affect the treatment
received and/or length of stay. Diagnoses that relate to an earlier episode which have no bearing
on the current hospital stay are to be excluded.” Sections II and III of the Coding Guidelines
state that “if the diagnosis documented at the time of discharge is qualified as ‘probable,’
‘suspected,’ ‘likely,’ ‘questionable,’ ‘possible,’ or ‘still to be ruled out,’ code the condition as if
it existed or was established.”

Section IV of the Coding Guidelines states that for each outpatient and physician service, the
provider should “[c]ode all documented conditions that coexist at the time of the encounter/visit,
and require or affect patient care treatment or management.” The Coding Guidelines also state
that conditions should not be coded if they “… were previously treated and no longer
exist. However, history codes … may be used as secondary codes if the historical condition or
family history has an impact on current care or influences treatment.” Additionally, in outpatient
and physician settings, uncertain diagnoses, including those that are “probable,” “suspected,”
“questionable,” or “working,” should not be coded.

The 2007 Participant Guide, section 7.1.4, and the 2006 Participant Guide, section 8.1.3, require
that documentation support the diagnoses that MA organizations submit for use in CMS’s risk
score calculations. The documentation must include an acceptable physician signature and
specialty credentials. The 2007 Participant Guide, section 7.2.4.5, and the 2006 Participant
Guide, section 8.2.4.4, state: “[A]ll dates of service that are identified for review must be signed
(with credentials) and dated by the physician or an appropriate physician extender (e.g., nurse
practitioner.)” Examples of acceptable physician signatures include handwritten signatures or
initials, signature stamps that comply with State regulations, and electronic signatures with
authentications by the respective providers. Typed names; signatures of nonphysicians or
nonphysician extenders (e.g., medical students); and signatures without credentials are
unacceptable for risk adjustment purposes.




                                                   5
UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES

To calculate beneficiary risk scores and risk-adjusted payments to MA organizations, CMS must
first convert diagnoses to HCCs. During our audit period, Bravo submitted to CMS at least one
diagnosis associated with each HCC that CMS used to calculate each sampled beneficiary’s risk
score for CY 2007. The risk scores for 65 sampled beneficiaries were invalid because the
diagnoses that Bravo submitted to CMS (1) were not supported, (2) were missing signatures or
credentials, or (3) had no documentation. Some diagnoses were invalid for more than one
reason. These diagnoses had a total of 127 errors associated with 118 HCCs. Appendix C shows
the errors associated with these HCCs.

Unsupported Diagnosis Coding

The documentation that Bravo submitted to us for medical review did not support the diagnoses
associated with 112 HCCs. For 11 of the 112 HCCs, our medical reviewer determined other
diagnoses to be more appropriate. In these instances, the documentation supported HCCs that
were different from those that CMS used in determining the beneficiaries’ risk scores. The
following are examples of HCCs that were not supported by Bravo’s documentation.

   •   For one beneficiary, Bravo submitted the diagnosis code for “other acute and subacute
       forms of ischemic heart disease, other.” CMS used the HCC associated with this
       diagnosis in calculating the beneficiary’s risk score. However, the documentation that
       Bravo provided noted only a consultation for blurry vision. The documentation did not
       mention an evaluation, clinical finding, or treatment related to the diagnosis code
       submitted.

   •   For another beneficiary, Bravo submitted the diagnosis code for “mucopurulent chronic
       bronchitis.” CMS used the HCC associated with this diagnosis in calculating the
       beneficiary’s risk score. However, the documentation that Bravo provided supported the
       diagnosis code for “acute bronchitis [viral],” which does not have an associated HCC.

Missing Signatures and Credentials

Fourteen HCCs were unsupported because the documentation that Bravo provided did not
include the physicians’ signatures and/or credentials, or attestations by the physicians.

For example, for one beneficiary, Bravo submitted the diagnosis code for “hypertensive heart
disease, unspecified with heart failure.” CMS used the HCC associated with this diagnosis in
calculating the beneficiary’s risk score. However, the documentation that Bravo submitted was
not signed by the provider, and Bravo was unable to obtain a signature attestation from the
provider after the fact.

No Documentation Provided

One HCC was unsupported because Bravo did not provide any documentation. Bravo submitted
the diagnosis code for “chronic obstructive pulmonary disease.” CMS used the HCC associated

                                               6
with this diagnosis in calculating the beneficiary’s risk score. However, Bravo officials advised
us that they could not obtain any medical records to support the HCC.

CAUSE OF OVERPAYMENTS

During our audit period, Bravo officials stated that they had policies and procedures in place to
validate risk adjustment data. However, Bravo officials also said that they did not review the
diagnosis codes received from providers before submitting the codes to CMS. Bravo officials
stated that, instead, Bravo conducted annual chart reviews to ensure that diagnoses codes were
correct.

As demonstrated by the significant error rate found in our sample, Bravo’s practices were not
effective for ensuring that the diagnoses submitted to CMS complied with the requirements of
the 2007 and 2006 Participant Guides. Bravo officials stated that after the audit period, Bravo
increased its provider outreach efforts and initiated a Personal Health Profile to obtain provider
information to supplement the diagnosis codes.

ESTIMATED OVERPAYMENTS

As a result of the unsupported diagnoses in our sample, Bravo received $422,409 in
overpayments from CMS. On the basis of our sample results, we estimated that Bravo was
overpaid approximately $22,108,905 in CY 2007. However, although an analysis to determine
the potential impact of error rates inherent in FFS data on MA payments was beyond the scope
of our audit, we acknowledge that CMS is studying this issue and its potential impact on audits
of MA organizations. 7

Therefore, because of the potential impact of these error rates on the CMS model that we used to
recalculate MA payments for the beneficiaries in our sample, we (1) modified one
recommendation, to refund only the overpayments identified for the sampled beneficiaries rather
than refund the estimated overpayments, and (2) added a recommendation that Bravo work with
CMS to determine the correct contract-level adjustments for the estimated overpayments.

RECOMMENDATIONS

We recommend the following:

      •    Bravo should refund to the Federal Government $422,409 in overpayments identified for
           the sampled beneficiaries.

      •    Bravo should work with CMS to determine the correct contract-level adjustment for the
           projected $22,108,905 8 of overpayments.


7
    75 Fed. Reg. 19749 (April 15, 2010).
8
 This amount represents our point estimate. The confidence interval for this estimate has a lower limit of
$17.4 million and an upper limit of $26.9 million. See Appendix B.

                                                         7
      •    Bravo should modify its policies and procedures and improve its current practices to
           ensure compliance with Federal requirements.

BRAVO COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Bravo said that our sample approach and limited review
were flawed; cited a disconnect between our audit and CMS’s guidance and requirements; and
suggested we evaluate our audit process, existing and proposed CMS guidance, and Bravo’s
responses, including additional documentation, prior to issuing a final report. Bravo also stated
that we did not account for error rates inherent in Medicare FFS data, specifically the disparity
between FFS claim data and FFS medical records data and its potential impact on MA payments.
In addition, Bravo described actions it has taken since the 2006 audit period and stated that it
would continue to evaluate its policies and procedures for improvements consistent with CMS
requirements. Bravo’s comments on our draft are included as Appendix D. We excluded the
attachments to the comments because they contained personally identifiable information.

Although an analysis to determine the potential impact on MA payments of error rates inherent
in FFS data was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. 9 Therefore, because of the potential
impact of these error rates on the CMS model that we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have Bravo refund only the
overpayments identified for the sampled beneficiaries rather than refund the estimated
overpayments and (2) added a recommendation that Bravo work with CMS to determine the
correct contract-level adjustments for the estimated overpayments. We also accepted physician
attestations in accordance with Federal regulations issued after our review.

We evaluated the additional information and documentation that Bravo provided after the second
medical review and in response to the draft report. As applicable, we submitted the additional
information and documentation for 14 HCCs to our medical review contractor for a third review.
To the extent our medical review contractor found support in this additional documentation, we
revised our findings accordingly.

Physician Signatures and Credentials

Bravo Comments

Bravo stated that we provided inconsistent guidance regarding physician signatures and did not
follow CMS’s audit methodology allowing physician signature attestations. Bravo noted that, as
a result, we identified 46 HCCs that were invalid, in whole or in part, because they did not have
physician signatures and credentials.

Office of Inspector General Response

The audit team advised Bravo on January 12, 2009, that it understood that the audit would not
focus on technical issues such as missing signatures. However, while on site at Bravo on
9
    75 Fed. Reg. 19749 (April 15, 2010).

                                                   8
January 15, 2009, the audit team updated Bravo and advised the Bravo representatives that it
would be reviewing for signatures. Therefore, Bravo officials were aware of the signature
guidance prior to providing the first medical records on February 2, 2009.

We did not initially accept physician attestations because the 2007 Participant Guide,
section 7.2.4.5, and the 2006 Participant Guide, section 8.2.4.4, stated that documentation
supporting the diagnosis must include an acceptable physician signature. However, after a 2010
change in Federal regulations (42 CFR § 422.311), we requested attestations. Bravo provided 32
physician signature attestations. We accepted them and revised our findings accordingly.

One Best Medical Record

Bravo Comments

Bravo stated that, although we ultimately did review the entire medical record, we inconsistently
considered the one best medical record. Bravo stated that we validated some HCCs and, upon
review, determined the HCC was not valid. (Bravo also stated that, in some cases, the opposite
result occurred.) Bravo cited one example for which it believed the HCC was validated and the
validation was subsequently reversed.

Office of Inspector General Response

The 2007 Participant Guide, sections 7.2.3 and 7.2.3.1, and the 2006 Participant Guide, sections
8.2.3 and 8.2.3.1, required the plan to select “one best medical record” to support each
beneficiary HCC identified for risk adjustment validation. Although we requested one best
medical record for review, Bravo submitted additional records for the beneficiaries. Our
independent medical reviewer indicated that it reviewed entire records submitted for these
beneficiaries.

The CMS model incorporates disease hierarchies. These hierarchies are used to provide
payments only for the most severe manifestation of a disease, even when diagnoses for less
severe manifestations of a disease are also present during the data collection year. Accordingly,
for beneficiaries with multiple HCCs within a disease hierarchy, we submitted for first medical
review a medical record to support the highest HCC. Initially, we did not submit the records to
support lower HCCs in the hierarchy. If the medical reviewer validated the highest HCC, we
accepted the HCC with no error. If the medical reviewer did not validate the HCC, we
considered the HCC an error and submitted the next-highest HCC for that beneficiary. We
submitted a further HCC for review only if the medical review did not validate the first or second
HCC. We considered incorrect those HCCs that were specifically submitted to the medical
reviewer and invalidated in that review.

For the beneficiary in Bravo’s example, Bravo provided additional documentation after the
second round of medical review had closed. We reflected that the HCC was not validated in the
draft report. Subsequently, we contracted for a third round of medical review and submitted the
new documentation. The new documentation validated the HCC, and it is no longer an error.



                                                9
Disregard of Other Hierarchical Condition Categories

Bravo Comments

Bravo stated that, although we gave credit in the financial calculation for higher or lower HCCs
in the same hierarchy, we did not reflect the higher or lower HCCs in the number of unsupported
HCCs, thereby overstating the number of unsupported HCCs. Bravo also stated that we did not
consider additional HCCs that were identified incidentally, by the medical reviewer or Bravo,
during the audit.

Office of Inspector General Response

Our audit was designed to determine whether beneficiary medical records supported the
diagnoses that Bravo had submitted to CMS. For each beneficiary, we submitted for review the
single highest HCC. If the medical reviewer determined that the medical record did not support
that HCC, we counted one error and submitted a second diagnosis code for review. We counted
as errors only the HCCs determined to be incorrect by the medical reviewer. Diagnoses that
were not reviewed were not considered errors, and each beneficiary was counted only once. Our
review was limited to determining whether diagnoses that Bravo submitted to CMS complied
with Federal requirements. Diagnoses that Bravo did not submit to CMS were outside the scope
of our audit.

Communication Issues

Bravo Comments

Bravo questioned whether the audit team possessed adequate professional competence and
expressed concern that because we would not identify or allow access to the medical review
contractor, Bravo could not determine whether there was any conflict of interest. Bravo stated
that it did not have access to the reviewers’ specific comments and was denied the opportunity to
resolve any differences in the reviewers’ conclusions. Additionally, Bravo commented that
much of the communication with the audit team was verbal and that the lack of written
communication was inefficient and ineffective.

Bravo stated that it was disadvantaged by the timelag between the dates of service in 2006 for
which we requested audit documentation and the notice of the audit (December 2008), which
made it difficult to collect documentation from providers. For certain cases in which Bravo’s
own independent reviewer determined that the submitted documentation did not support the
diagnosis, Bravo obtained diagnoses attestations from physicians when available. However,
Bravo requested that we reconsider the finding for an HCC for which it was unable to obtain
additional documentation because the physician had retired. Finally, Bravo noted that the
audited contract covered a medically underserved area, and that physician resources may not
allow for robust recordkeeping systems in those areas.




                                               10
Office of Inspector General Response

The audit team collectively possessed the competence to perform the audit and understood the
payment methodology. The Participant Guide states that diagnoses included in risk adjustment
data must be based on clinical medical record documentation. Therefore, contacting the
contractor would not be appropriate or necessary to support a medical record that properly
documented the diagnosis. Audit methodologies often require the audit team to interview
officials to elicit information.

The Participant Guide limits the types of acceptable documentation. Although changes in the
Federal regulations allow signature attestations, diagnosis attestations are not acceptable forms of
documentation. Regarding the HCC for which Bravo had no documentation, we followed the
2007 Participant Guide, which requires proper medical record documentation for accurate
payment and successful data validation. In the absence of such documentation, we were unable
to validate the HCC. Therefore, the HCC remains in error.

Although Bravo stated it was disadvantaged because of the timelag between the service dates and
the audit start notice, CMS requires MA organizations to comply with certain terms.
Specifically, Federal regulations require that MA organizations maintain ultimate responsibility
for adhering to and otherwise fully complying with all terms and conditions of the contract with
CMS, including the requirement to provide appropriate documentation upon request.
Additionally, the regulations require that MA organizations agree to require that all contractors
or subcontractors also agree to the Government’s right to audit pertinent information for the
contract period. The audit right exists through 10 years from the final date of the contract period
(42 CFR § 422.504(h)(2)(i)).

Random Sample and Extrapolation

Bravo Comments

Bravo stated that our sample of 100 beneficiaries was insufficient to draw meaningful
conclusions and did not fully represent the 5,234 members during the audit period. Bravo also
stated that extrapolation was inappropriate given the sample, the FFS error rate, and the lack of
precedent in the MA program.

Office of Inspector General Response

Our sample size of 100 beneficiaries provided a fair and unbiased representation of the 5,234
members in our sampling frame.

CMS, in its Final Rule “Medicare Program; Policy and Technical Changes to the Medicare
Advantage and the Medicare Prescription Drug Benefit Programs,” stated that there may be merit
in further refining the calculation of payment errors that result from postpayment validation
efforts. 10 Given the impact this error rate could have on the CMS model that we used to
recalculate MA payments, we modified our first recommendation to seek a refund only for the
10
     75 Fed. Reg. 19749 (April 15, 2010).

                                                11
overpayments identified for the sampled beneficiaries. We made an additional recommendation
that Bravo work with CMS to determine the correct contract-level adjustments for the estimated
overpayments.

Limitations on the Risk Adjustment Payment and Validations

Bravo Comments

Bravo stated that OIG’s audit findings unfairly hold Bravo responsible for inherent limitations in
CMS’s risk adjustment payment methodology because the payment methodology does not
account for the errors in the underlying FFS claim data. Bravo also commented on the
limitations of the risk adjustment data validation (RADV) process because the acceptable
medical record sources are restrictive, and the one best medical record requirement limits the
accuracy of HCCs. Bravo said that additional records from prior or subsequent years are often
needed to verify accuracy.

Office of Inspector General Response

An analysis to determine the potential impact of error rates inherent in Medicare FFS data on
MA payments was outside the scope of this audit. However, as noted, CMS stated in its
April 15, 2010, Final Rule that there may be merit in further refining the calculation of payment
errors, and given this potential impact, we modified our first recommendation and added a
second.

Regarding the limits in CMS’s audit methodology, the objective of our review was to determine
whether diagnoses that Bravo submitted to CMS for use in CMS’s risk score calculations
complied with Federal requirements. Although we did not perform a RADV audit pursuant to
the audit guidelines that CMS established in its 2007 and 2006 Participant Guides, we designed
our review to be no more restrictive than CMS’s methodology, which limits the documentation
to the one best medical record, from only certain provider types, and for the relevant data
collection period. As described in our methodology, if the HCC was in error after the first round
of medical review, we requested that Bravo provide us with medical records in addition to the
previous “one best medical record,” which we provided to the contractor for a second review.

Responses to Individual Findings

Bravo Comments

In its response to our draft report, Bravo indicated that it disagreed with 24 of the invalidated
HCCs. In subsequent communication, Bravo revised the number and stated that it disagreed with
93 of the errors we found that invalidated HCCs. Bravo provided additional documentation in its
comments and in response to followup discussions with us.




                                                12
Office of Inspector General Response

After we had completed our medical reviews, and in response to the draft report, Bravo provided
additional information for 14 HCCs for which our contractor had not found adequate support.
We accepted and evaluated the information and, where Bravo provided either (1) new
documentation that it had not previously provided or (2) a new explanation as to why the
documentation validated the selected HCC, we submitted the additional documentation to our
contractor for a third review. For this medical review, our contractor followed the same protocol
used in the earlier reviews. Our contractor found support in this additional documentation that
validated four of the HCCs.

Because Federal regulations regarding signature attestations changed in 2010, we also requested
signature attestations as needed. Bravo provided 32 signature attestations. We revised our
findings as applicable.

                                       OTHER MATTERS

In preparing our response to Bravo’s comments on our draft report, we reviewed the information
that Bravo provided to us during the audit. We discovered that some of the medical records that
Bravo submitted to us during our fieldwork had been altered and resubmitted. For example,
Bravo submitted a document on January 28, 2009, and subsequently resubmitted the document
on September 17, 2009, with a medical annotation that did not appear on the original.

After we brought these discrepancies to Bravo’s attention, Bravo conducted an internal review
and identified another medical record that contained a “similar discrepancy.” Bravo explained
that the record, as originally provided to us, contained a medical annotation, but the annotation
was not on the record that the provider furnished to Bravo. Bravo requested that the record be
retracted and no longer used to support the HCC that had previously been validated. We did not
use this or any of the altered documents that we had identified in determining whether HCCs
were supported.

On July 26, 2013, OIG entered into a settlement agreement with Bravo and imposed a civil
monetary penalty of $225,000 related to Bravo’s submission of the falsified documents.




                                               13
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

SAMPLING FRAME

The sampling frame consisted of 5,234 beneficiaries on whose behalf the Centers for Medicare
& Medicaid Services paid Bravo Health Pennsylvania, Inc. (Bravo), approximately $72 million
in calendar year (CY) 2007. These beneficiaries (1) were continuously enrolled under contract
H3949 during all of CY 2006 and January of CY 2007 and (2) had a CY 2007 risk score that was
based on at least one Hierarchical Condition Category.

SAMPLE UNIT

The sample unit was a beneficiary.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiaries.

SOURCE OF THE RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 5,234. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate
the total value of overpayments.
   APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                        Sample Results
                                       Number
Sampling
           Sample     Value of     of Beneficiaries    Value of Net
 Frame
            Size      Sample       With Incorrect     Overpayments
  Size
                                      Payments
 5,234      100      $1,565,843           65            $422,409



              Estimated Value of Overpayments
    (Limits Calculated for a 90-Percent Confidence Interval)

             Point estimate            $22,108,905
             Lower limit                 17,353,813
             Upper limit                 26,863,996
                                                                                      Page 1 of 3


             APPENDIX C: DOCUMENTATION ERRORS IN SAMPLE

                              A    Unsupported diagnosis coding
                              B    Missing signature and/or credentials
                              C    No documentation provided



                                                                                         Total
                  Hierarchical Condition Category                         A   B   C      Errors
1    Vascular Disease                                                     X                 1
2    Chronic Obstructive Pulmonary Disease                                X                 1
3    Congestive Heart Failure                                             X                 1
4    Chronic Obstructive Pulmonary Disease                                        X         1
5    Vascular Disease                                                         X             1
6    Congestive Heart Failure                                             X                 1
7    Specified Heart Arrhythmias                                          X                 1
 8   Diabetes Without Complication                                        X                 1
 9   Intestinal Obstruction/Perforation                                   X                 1
10   Vascular Disease                                                     X                 1
11   Lymphatic, Head and Neck, Brain, and Other Major Cancers             X                 1
12   Diabetes Without Complication                                        X                 1
13   Diabetes With Renal or Peripheral Circulatory Manifestation          X                 1
14   Diabetes With Ophthalmologic or Unspecified Manifestation            X                 1
15   Rheumatoid Arthritis and Inflammatory Connective Disease Tissue      X                 1
16   Specified Heart Arrhythmias                                          X                 1
17   Diabetes Without Complication                                        X                 1
18   Lung, Upper Digestive Tract, and Other Severe Cancers                X   X             2
19   Ischemic or Unspecified Stroke                                       X   X             2
20   Decubitus Ulcer of Skin                                              X   X             2
21   Vascular Disease                                                     X                 1
22   Breast, Prostate, Colorectal, and Other Cancers and Tumors           X                 1
23   Spinal Cord Disorders/Injuries                                       X                 1
24   Vascular Disease With Complications                                  X                 1
25   Diabetes With Renal or Peripheral Circulatory Manifestation          X                 1
26   Unstable Angina and Other Acute Ischemic Heart Disease               X                 1
27   Renal Failure                                                        X                 1
28   Diabetes Without Complication                                        X                 1
29   Vascular Disease                                                     X                 1
30   Congestive Heart Failure                                             X                 1
31   Renal Failure                                                        X                 1
32   Polyneuropathy                                                       X                 1
33   Congestive Heart Failure                                             X                 1
34   Unstable Angina and Other Acute Ischemic Heart Disease               X                 1
35   Diabetes Without Complication                                        X                 1
36   Ischemic or Unspecified Stroke                                       X                 1
                                                                               Page 2 of 3


                                                                                   Total
                  Hierarchical Condition Category                      A   B   C   Errors
37   Chronic Obstructive Pulmonary Disease                             X             1
38   Chronic Ulcer of Skin, Except Decubitus                           X             1
39   Breast, Prostate, Colorectal, and Other Cancers and Tumors        X             1
40   Breast, Prostate, Colorectal, and Other Cancers and Tumors        X             1
41   Unstable Angina and Other Acute Ischemic Heart Disease            X   X         2
42   Chronic Obstructive Pulmonary Disease                             X             1
43   Rheumatoid Arthritis and Inflammatory Connective Disease Tissue   X             1
44   Congestive Heart Failure                                          X             1
45   Unstable Angina and Other Acute Ischemic Heart Disease            X             1
46   Unstable Angina and Other Acute Ischemic Heart Disease            X   X         2
47   Ischemic or Unspecified Stroke                                    X             1
48   Vascular Disease With Complications                               X             1
49   Vascular Disease                                                  X   X         2
50   Lung, Upper Digestive Tract, and Other Severe Cancers             X             1
51   Pancreatic Disease                                                X             1
52   Major Depressive, Bipolar, and Paranoid Disorders                 X             1
53   Intestinal Obstruction/Perforation                                X             1
54   Congestive Heart Failure                                          X             1
55   Unstable Angina and Other Acute Ischemic Heart Disease            X             1
56   Vascular Disease With Complications                               X             1
57   Breast, Prostate, Colorectal, and Other Cancers and Tumors        X             1
58   Diabetes Without Complication                                     X             1
59   Vascular Disease                                                  X             1
60   Chronic Obstructive Pulmonary Disease                             X             1
61   Diabetes Without Complication                                     X             1
62   Congestive Heart Failure                                              X         1
63   Vascular Disease                                                      X         1
64   Congestive Heart Failure                                          X             1
65   Unstable Angina and Other Acute Ischemic Heart Disease            X             1
66   Bone/Joint/Muscle Infections/Necrosis                             X             1
67   Angina Pectoris/Old Myocardial Infarction                         X             1
68   Vascular Disease With Complications                               X             1
69   Chronic Obstructive Pulmonary Disease                             X             1
70   Coma, Brain Compression/Anoxic Damage                             X             1
71   Renal Failure                                                     X             1
72   Angina Pectoris/Old Myocardial Infarction                         X             1
73   Diabetes With Neurologic or Other Specified Manifestation             X         1
74   Diabetes With Ophthalmologic or Unspecified Manifestation             X         1
75   Lung, Upper Digestive Tract, and Other Severe Cancers             X             1
76   Breast, Prostate, Colorectal, and Other Cancers and Tumors        X             1
77   Major Complications of Medical Care and Trauma                    X             1
78   Hemiplegia/Hemiparesis                                            X             1
                                                                                  Page 3 of 3


                                                                                     Total
                  Hierarchical Condition Category                  A     B    C      Errors
79    Vascular Disease                                             X                    1
80    Vascular Disease                                             X     X              2
81    Major Complications of Medical Care and Trauma               X                    1
82    Major Depressive, Bipolar, and Paranoid Disorders            X                    1
83    Seizure Disorders and Convulsions                            X     X              2
84    Ischemic or Unspecified Stroke                               X                    1
85    Angina Pectoris/Old Myocardial Infarction                    X                    1
86    Chronic Obstructive Pulmonary Disease                        X                    1
87    Diabetes Without Complication                                X                    1
88    Ischemic or Unspecified Stroke                               X                    1
89    Vascular Disease With Complications                          X                    1
90    Congestive Heart Failure                                     X                    1
91    Unstable Angina and Other Acute Ischemic Heart Disease       X                    1
92    Specified Heart Arrhythmias                                  X                    1
93    Ischemic or Unspecified Stroke                               X                    1
94    Chronic Obstructive Pulmonary Disease                        X                    1
95    Congestive Heart Failure                                     X                    1
96    Cerebral Hemorrhage                                          X                    1
97    Ischemic or Unspecified Stroke                               X                    1
 98   Vascular Disease                                             X                    1
 99   Chronic Obstructive Pulmonary Disease                        X                    1
100   Diabetes With Neurologic or Other Specified Manifestation    X                    1
101   Congestive Heart Failure                                     X                    1
102   Angina Pectoris/Old Myocardial Infarction                    X                    1
103   Renal Failure                                                X                    1
104   Diabetes With Ophthalmologic or Unspecified Manifestation    X                    1
105   Diabetes With Neurologic or Other Specified Manifestation    X                    1
106   Intestinal Obstruction/Perforation                           X                    1
107   Vascular Disease With Complications                          X                    1
108   Lymphatic, Head and Neck, Brain, and Other Major Cancers     X                    1
109   Breast, Prostate, Colorectal, and Other Cancers and Tumors   X                    1
110   Chronic Obstructive Pulmonary Disease                        X                    1
111   Cardiorespiratory Failure and Shock                          X                    1
112   Ischemic or Unspecified Stroke                               X                    1
113   Vascular Disease                                             X                    1
114   Polyneuropathy                                               X                    1
115   Specified Heart Arrhythmias                                  X                    1
116   Vascular Disease                                             X                    1
117   Lung, Upper Digestive Tract, and Other Severe Cancers        X                    1
118   Schizophrenia                                                X     X              2
                                    Total                          112   14   1        127
                                                                                       Page 1 of37


                  APPENDIX D: BRAVO COMMENTS 





                                                                            (I)
                                                                             .c
August 30, 2010
                                                                        bravo
                                                                         HEALTH"



Stephen Virbitsky
Regional Inspector General
 for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

      Re:    Draft Report Number: A-03-09-00003
             Risk Adjustment Data Validation of Payments Made to Bravo Health
             Pennsylvania, Inc., for Calenda1· Year 2007 (Contract Number H3949)

Dear Mr. Virbitsky:

       Bravo Health, Inc. is in receipt of the above-referenced Office oflnspector
General ("OIG") draft audit report (the "Draft Report") related to the risk
adjustment data validation of calendar year 2007 payments to Bravo Health
Pennsylvania, Inc. (Bravo Health, Inc. and Bravo Health Pennsylvania, Inc. are
collectively referred to herein as "Bravo Health"). We appreciate the extension of
time given to us by the OIG to respond to the Draft Report's preliminary findings
and recommendations.

       Per the Draft Report, the OIG Office of Audit Services provides auditing
services for the Department of Health and Human Services ("HHS") and that
"[t]hese assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS." However, we do not believe that these
goals are furthered by this audit. For example, the flaws in the approach used to
identify a sample of Bravo Health members for audit as well as the limited review
performed for the audit have resulted in a Draft Report that contains numerous
findings with which Bravo Health disagrees and recommendations that are
unwarranted and inequitable. Moreover, the apparent "disconnect" between the
OIG audit and the Centers for Medicare and Medicaid Services ("CMS") program
guidance and requirements related to risk adjustment data validation ("RADV')
raises questions as to the purpose of this audit. Bravo Health believes that, before
issuing a final audit report or recommendations to CMS, the OIG needs to fully
evaluate (1) the process that was followed for this audit; (2) applicable CMS
guidance and requil·ements as well as proposals under consideration by CMS




            3601 O'Donnell St., Baltimore, MD 212241 www.bravohealth.com
                                                                                       Page 2 of37




regarding RADV; and (3) Bravo Health's response including supporting
documentation:
     Set forth below is Bravo Health's detailed response with reference to
supporting exhibits.

I.    Observations on the Audit Process and Methodology
      A.    Inconsistency in Approach and Stated Objectives

             1.    Missing Signatures and/or Credentials

       During the entrance conference between Bravo Health and OIG
representatives, the OIG auditors stated that they were not conducting a CMS-type
RADV audit. Rather, their objective was to review records to determine if there was
clinical support within the medical records for the audited hierarchical condition
categories ("HCCs"). OIG representatives indicated that the OIG was not concerned
with technical issues such as signatures and credentials. Bravo Health confirmed
its understanding regarding signatures and credentials on medical records with the
OIG in an email dated January 12, 2009. See Exhibit 1. Thus, it was Bravo
Health's understanding that a medical record that provided clinical support for the
audited HCC would not be rejected solely because the physician's signature and/or
credentials were missing or illegible. Despite Bravo Health's understanding, the
OIG rejected medical records provided by Bravo Health that had missing or illegible
physician signatures and/or credentials. In addition, the OIG would not accept
physician signature attestations to support missing or illegible signatures and/or
credentials. See OIG email dated July 10, 2009 attached hereto as Exhibit 2. See
also Bravo Health's June 30, 2009 letter to the OIG attached hereto as Exhibit 3.
Nevertheless, Bravo Health obtained physician signature attestations to support
missing or illegible signatures or credentials subsequent to the conclusion of the
audit.
       As a result of the reversal of the OIG's initially stated position, the Draft
Report includes findings that 46 HCCs were unsupported due to missing or illegible
signatures and/or credentials. It is important to note that the Draft Report found
that 23 of the 46 HCCs had appropriate clinical support in the medical record and
that the sole reason for invalidating these 23 HCCs was that the physician's
signature or credentials were missing o1· illegible.
       Bravo Health objects to the OIG's refusal to accept physician signature
attestations to support missing or illegible signatures or credentials on medical
records. OIG's refusal is not only unfair given its prior representations to Bravo
Health, but more importantly it is contrary to CMS RADV procedures. The OIG
should not pick and choose which CMS RADV requirements it will follow. CMS has
developed a physician signature attestation form, which it allows Medicare
Advantage Organizations to use under such circumstances. In fact, CMS has

                                         2

                                                                                                       Page 3 of37




formalized through rulemaking the use of physician signature attestations to
support missing or illegible signatures or credentials on medical records. See 42
C.F.R. § 422.3ll(c) (2010).

        Included with this response as Exhibit 4 are 20 physician signature
attestations that Bravo Health has obtained subsequent to the conclusion ofthe
audit.l The text of these attestations is the same as the CMS-required form. There
are nine other physician signature attestations that Bravo Health has been unable
to obtain due to a physician retirement's or relocating out of the area, after the
services were rendered in 2006. Therefore, Bravo Health has obtained attestations
for all but nine of the 29 HCCs that Bravo Health believes are fully supported HCCs
but are only missing signatures and/or credentials. Bravo Health requests that the
OIG revise its findings, consistent with CMS requirements and the OIG's prior
representations, to find that the HCCs for which Bravo Health has provided
physician signature attestations are validated.

               2.      Inconsistent Consideration of the One Best Medical Record

       The Draft Report provides at page i that the OIG's "objective was to
determine whether the diagnoses that Bravo Health submitted to CMS for use in
CMS's risk score calculations complied with the requirements of the [2007 Risk
Adjustment Data Training for Medicare Advantage Organizations] Participant
Guide." Per the Participant Guide at§ 7.1.4, Medicare Advantage Organizations
"must select 'one best medical record' to support each beneficiary HCC identified for
validation." Similarly, the Draft Report provides at page 2 ,

               Consistent with CMS's risk adjustment data validation p1·ocess,
               we did not request all medical records associated with a
               beneficiary. Instead, we limited our request to the portion of the
               sampled beneficiary's medical record associated with an
               encounter that, in Bravo's judgment, best supported the HCC(s)
               that CMS used to calculate the risk score. We refer to that
               portion of the medical record as "documentation."

      Although the OIG ultimately did review the entire medical record
submitted by Bravo Health,2 the OIG's conclusions regarding the medical
record documentation were inconsistent. In some cases, the OIG would
determine that an HCC was validated but, upon subsequent review of the
same documentation, determine that the HCC was not validated. See# 78 in
Section IV.B below. In other cases, the opposite result occurred.


lExhibits 4 and 6 are being provided via an encrypted disc. (password will be provided separately)
2The OIG initially sought to limit its review to a specific item, line or paragraph that it required
Bravo Health to identify within the medical record. See March 6, 2009 email attached hereto as
Exhibit 5.


                                                  3
                                                                                         Page4 of37




             3. 	   Disregard of Other HCCs

       Although the OIG gave Bravo Health credit in the financial calculation for a
higher or lower HCC if it was in the same hierarchy as t he audited HCC, the OIG
did not reflect the higher or lower HCC in the number of unsupported HCCs
reported in the Draft Report thereby overstating the number of unsupported HCCs.
In addition, the Draft Report ignores situations where the medical record did not
support the audited HCC but did support another HCC. Bravo Health validated
one alternate HCC in this manner. Finally, Bravo Health identified two medical
records that were provided to the OIG that supported the audited HCC and
contained three additional HCCs. The OIG did not identify nor give Bravo Health
credit for these additional HCCs. See Section IV.B of this response.

      B. 	   Communication and Substantive Challenges

       The OIG has performed numerous audits of various aspects of the p1·ogram
operations of Medicare Advantage Organizations. However, it is Bravo Health's
understanding that the OIG has not previously audited risk adjustment payments
under the CMS-HCC methodology until now. To assist in the audit, the OIG
engaged a medical review contractor ("MRC") to perform the actual medical record
reviews. Given that risk adjustment payments are a new and complex area of audit
for the OIG, it was Bravo Health's expectation that the OIG audit process would
include knowledgeable staff and open and frequent interaction between the audit
participants. As discussed below, this was not case.

             L	     Lack of Knowledgeable OIG Staff and Denial ofAccess to the
                    MRC Reviewers

       While cordial and professional, the OIG audit staff did not appear to be
familiar with the Medicare Advantage program including the basic fact that
Medicare Advantage Organizations are paid on a capitated prospective payment
basis rather than fee-for-service. Bravo Health staff was put in the awkward
position of having to explain the basics of the program to the audit staff, which took
time away from the substance of the audit. It is Bravo Health's understanding that
generally accepted government auditing standards, which the Draft Report
indicates were followed in performing the audit, require that the audit staff possess
adequate professional competence for the tasks required. See Government Auditing
Standards at § 3.40. The audit staff should also posses a general knowledge of the
environment in which the audited entity operates and the subject matter under
review. Id. at§ 3.43.

        As noted above, the OIG engaged an MRC to review the medical record
documentation provided by Bravo Health. While engaging a contractor in
connection with an audit may not be an unusual practice for a government agency,
the ''secrecy" surrounding the MRC was unusual based on Bravo Health's


                                          4
                                                                                                     Page 5 of37




experience with other government audits. Specifically, the OIG would not provide
Bravo Health with the name ofthe MRC or the credentials of the MRO's reviewers
and, most significantly, the OIG would not allow Bravo Health to have any
discussions with the reviewers. Since Bravo Health did not know who the MRO
was, Bravo Health could not evaluate whether the OIG's engagement of the MRC
for the Bravo Health audit created any real or potential conflict ofinterest.
Furthermore, interaction between Bravo Health and MRO staff would have
facilitated the audit process particularly given the fact that medical record chart
review is oftentimes a subjective process. Such interaction could have also
compensated for the lack of experience of the OIG audit staff. Government Auditing
Standru·ds provide that "[i]n all matters relating to the audit work, the audit
organization and the individual auditor, whether government or public, must be
free from personal, external, and organizational impairments to independence, and
must avoid the appearance of such impairments of independence." Government
Auditing Standards at § 3.02.

       Without direct interaction with the reviewers or even access to the reviewers'
specific findings rega1·ding the documentation provided by Bravo Health,S Bravo
Health was denied the opportunity to try to resolve any differences in the
conclusions drawn by the reviewers regarding the supporting documentation
provided by Bravo Health. In fact, for 24 of the invalidated HOOs, Bravo Health
believes that the medical record documentation it submitted complies with CMS
requirements and supports the reported HOC. A final resolution with respect to
these 24 HOOs could have been achieved before the Draft Report was issued had
discussions between Bravo Health and the MRO reviewers been allowed.

               2.      Adverse Impact Due to Time Gap

       Bravo Health was disadvantaged by the timing of the audit in relation to the
audit period. Specifically, the significant time span between the audit period (dates
of service in 2006) and the receipt of notice of the audit (December 2008), adversely
affected Bravo Health's ability to locate some provider medical records for the
sampled members. While Bravo Health does require participating p1·oviders to
retain records for inspection in accordance with OMS requirements, Bravo Health
ultimately does not have any control over whether a provider will have the needed
medical records when they are requested. The record retention problem is further
complicated by a physician's death, retirement or relocation. In this audit, no
supporting medical record was available for one HOC due to the treating physician's
retirement. See #5 in Section IV.B. The invalidated HOC associated with this
retired physician should be removed from the Draft Report's findings.

       For purposes of the OIG audit, Bravo Health engaged a third paxty vendor to
assist Bravo Health in obtaining the needed records from physicians. For cases

s Please refer to Bravo Health's June 30, 2009letter to the OIG at Exhibit 3 in which Bravo Health
expressed concerns regarding the OIG's delay in providing the MRC reviewers' explanations.


                                                 5
                                                                                         Page 6 of37




where the medical record documentation provided by the physician did not support
the diagnosis, Bravo Health obtained an attestation from the treating physician
whereby the physician certified that he 01· she did see and treat the member on the
date of service a nd treat the diagnosis submitted on the specific claim.

       The physician diagnosis attestations were completed by the physicians who
billed for the services that generated the HCC. In requesting the attestation, Bravo
Health sent the physician the actual claim as well as any medical records that
Bravo Health had for the relevant date of service. By signing the attestation, the
phys icia n acknowledged that the "medical record entries or diagnosis(es) submit ted
on the claim for t he [enrollee] accurately, truthfully and completely reflect[ed} the
medical condition(s), severity, complications and related medical trea tments for this
patient durin g the periods noted and fully support[ed] the diagnoses" included on
the attestation. A physician's willingness to sign this knowing that it would be used
in connection with the OIG audit of Bravo Health cannot be discounted. Bravo
Health submitted 33 diagnosis attestations from the treating physicians before it
received the Draft Report and has obtained 6 additional attestations since then.
See Exhibit 6 for the six additional diagnosis attestations.4

               3.      Lack of Written Instruction by OIG

      Other than the initial notice of audit, the OIG rarely communicated with
Bravo Health in writing. Communication by the OIG was almost always verbal,
which forced Bravo Health staff to send written follow-up communications to the
OIG to confirm Bravo Healt h's understanding. The lack of writ ten instruction and
communication by the OIG was inefficient and ineffective.

               4.      Characteristics of H3949

       Adding to t he challenge posed by this audit was the fact that the contract
selected by the OIG to audit, H3949, includes a Dual Eligible Special Needs Plan
serving an economically disadvantaged inner city area. In fact, 31% of the audited
members were dual eligible enrollees (i.e., individuals with both Medicare and
Medicaid) a nd a total of93% of the audited enrollees resided in Philadelphia
County. Bravo Health's experience with phys icians in medically underserved areas
is that physician resources are limited to treating patients and may not allow for
the time or other resources to devote to robust medical recordkeeping systems.
Bravo Health's physician network for H3949 in 2006 was comprised of sole
practitioners, small practices and practices acquired by hospitals. Very few of
Bravo Health's primary care physicians in 2006 used electronic medical record
maintenance systems.




• Exhibits 4 and 6 are being provided via an encrypted disc.


                                                  6
                                                                                                      Page 7 of37




II.    Sampling and Extrapolation Methodologies
       A.      Sampling

      According to the Draft Report, the OIG selected a random sample of 100
members. This sample was taken from a universe of 5,234 members who (1) were
continuously emolled under contract H3949 during all of calendar year 2006 and
January of calendar year 2007 and (2) had a calendar yero· 2007 risk score that was
based on at least one HCC.

       Bravo Health disagrees with both the size of the audited sample as well as
the approach used by the OIG to select the 100 members as neither resulted in a
random nor representative sample of Bravo Health's members during the audit
period.~> Furthermore, a sample of 100 1·ecords is insufficient statistically to draw
meaningful conclusions, as the resulting confidence interval is too wide. The audit
sample used by the OIG represents less than two percent of Bravo Health's total
membership for the audit period.G The extrapolation of the audit findings to the
total contract payments was based solely on the risk scores of the 100 continuously
emolled beneficiaries selected for the audit. This small sample's 1.0 bid is
considerably greater (11 %) than the population that is being extrapolated upon.
Therefore, the extrapolation is overstating the change in revenue which would
result from the error rate calculated in the sample.

       The Medicare Program Integrity Manual ("MPIM") identifies other factors
that should be considered in considering sample size. The factors include: (1) the
underlying variation in the target population, (2) the particular sampling method
that is employed (such as simple random, stratified, or cluster sampling), and the
particular form of the estimator that is used. MPIM Ch. 3, § 3.10.2.7 While there is
precedent for extrapolation under other government programs, Bravo Health is not
aware of any precedent for extrapolation under the Medicare Advantage program to
arrive at contract-level payment adjustments.

       B.      Extrapolation

      Historically, CMS and OIG audits of Medicare Advantage Organizations (and
predecessor Medicare managed care contractors) have resulted in recommended
repayments for the specific errors identified in the audit and have not been
extrapolated to request repayment on a contract-level basis. The Draft Report,
however, contains recommendations that Bravo Health repay not only the $481,834
based on the Draft Report's preliminary finding that 139 of the 304 audited HCCs

5 CMS RADV audits use a sample size of 200 members. 

6 See Daytona Beach General Hospital u. Weinberger, 435 F. Supp. 891 (M.D. Fla. 1977) (finding 

based on 10% of total cases upon which recoupment was made denied plaintiff due process. 

' Audit methods should be valid and reliable in order to satisfy due process. See Webb u. Shalala, 49 

F.Supp.2d 1114 (D.D.C. 1999). 



                                                  7
                                                                                         Page 8 of37




were unsupported, but recommends repayment of $20,212,876 based on the
extrapolation of that finding on a contract-level basis.

       Bravo Health believes that the extrapolation methodology used by the OIG is
both unfair and inappropriate for several reasons. One reason is, as noted in
Section ll.A. above, the audited sample upon which the extrapolation is based was
neither random nor representative of Bravo Health's membership. Extrapolated
findings based on a flawed sample are fundamentally unfair. Second, extrapolated
payment adjustments should be used, if ever, for Medicare Advantage
Organizations that have particularly high rates of unsupported diagnoses compared
to unsupported Medicare fee-for-service ("FFS") diagnoses upon which CMS-HCC
risk score data are based. In this regard, the diagnosis data used by CMS to
develop the risk scores for the HCC payment methodology are from Medicare FFS
claims. It is Bravo Health's understanding that Bravo Health's error rate is
compru·able to the error rate in Medicare FFS data. Medicare Advantage
Organizations cannot be expected to have a lower error rate than Medicare FFS
since the same physicians submit claims under both programs.a Third, precedent
under the Medicare program fo1· use of extrapolation is where there is a sustained
or high level of payment error.9 Neither a sustained nor high level of payment error
is present here. Fourth, the extrapolation of the audit findings to the total contract
was based solely on the risk scores ofthe 100 continuously enrolled beneficiaries
selected for the audit. This small sample's 1.0 bid was considerably greater (11%)
than the population which is being extrapolated upon. Therefore, the extrapolation
is overstating the change in revenue that would 1·esult from the error rate
calculated in the sample. Finally, it is unfair and inappropriate to seek contract­
level extrapolated payment adjustments in the first year that payments to Medicare
Advantage Organizations payments were 100% risk-adjusted. If extrapolation is to
be used, it should be phased-in as were risk adjusted payments to Medicare
Advantage Organizations.

III.   Inherent Limitations of the Risk Adjustment Payment Methodology
       and RADV Process
       In addition to the issues and concerns Bravo Health has regarding the audit
as discussed above, Bravo Health believes that the OIG's findings unfairly hold
Bravo Health responsible for inherent limitations in the risk adjustment payment
methodology and RADV process. Specifically, the risk adjustment payment
methodology and audit system must accurately capture the operational aspects and
assumptions that make up CMS payments to Medicare Advantage Organizations
including, but not limited to, FFS data errors and provider coding and
documentation flaws. Otherwise, Medicare Advantage Organizations will be
unfairly and inappropriately penalized for errors that are outside of their control.

s Please see Section liLA for a discussion of the FFS adjustment factor.
9 HCFA Ruling No. HCFAR-86-1 (Feb. 20, 1986). See also MPIM Ch. 3, 3.10.1.2.



                                               8
                                                                                      Page 9 of37




      A.    Incorporation of FFS Adjustment Factor

       For Medicare Advantage Organizations, the RADV process mandates a rule
set regarding physician documentation that was not anticipated in the ICD-9-CM
coding guidelines and differs from standard practice, as it is not enforced on
Medicare FFS claims. The RADV process as well as the OIG's audit process assume
that the underlying FFS claims data for the H CC risk scores are 100% accurate. As
noted above, FFS claims data have a significant error rate. The result is de facto
Medicare Advantage payment adjustments based on coding and documentation
discrepancies without an adjustment to Medicare FFS risk scores for the same
discrepancies. Thus, risk adjustment audits "double penalize" Medicare Advantage
Organizations.

       Bravo Health believes that before Medicare Advantage Organizations should
be subjected to refund requests related to their risk-adjusted payments, the error
rates inherent in the Medicare FFS data that affect Medicare Advantage error rates
must be accounted for. It is Bravo Health's understanding t hat CMS is developing
a FFS adjustment factor to account for the error in the FFS data that underlies the
Medicare Advantage risk score data. See 72 Fed. Reg. 19678, 19749 (April15,
2010). OIG should incorporate the results of CMS' analysis into its risk adjustment
audit findings.

      B.     Overdependence on Physician Diagnosis Coding and Documentation

       While incorporating an adjustment factor to account for the error rate in
Medicare FFS claims data will help to facilitate more accurate risk adjustment
audit findings, the FFS adjustment factor will not alone improve the accuracy of
risk adjustment payments in reflecting members' health status or of RADV audits.
Bravo Health respectfully suggests that CMS' limitations on the sources of
acceptable medical records that a Medicare Advantage Organization may submit for
risk adjustment purposes are restrictive and overlook other valid sources that
would support a diagnosis and validate an HCC or are valid predictors of members'
future health care costs. CMS' currently limited sources of acceptable
documentation conflict with CMS' goals in selecting the CMS-HCC model, i.e., "to
select a clinically sound risk adjustment model that improved payment accuracy
while minimizing the administrative burden on MA organizations." Id. at § 1.3
(emphasis added).

      In the common interest of CMS and OIG to ensure accurate HCCs are
assigned to Medicare beneficiaries, acceptable documentation to verify diagnosis
coding should not be unduly restricted. This is particularly true given that the
CMS-HCC model is dependent upon the accurate and complete diagnosis coding
and documentation practices of physicians. In this regard, CMS' own guidance
provides that



                                         9
                                                                                      Page 10 of37




          [The CMS-HCC] module emphasizes physician documentation and
          reporting of diagnosis codes. Historically, physician reimbursement
          in fee-for-service is primarily based on procedures or services rather
          than diagnoses, and physicians are very familiar with
          documentation guidelines for procedures and services. Physicians
          generally are not as familiar with diagnosis codes and their
          associated documentation guidelines as they are with procedure
          coding rules. The [CMS-HCC] models depend upon accurate
          diagnosis coding, which means that physicians must fully
          understand and comply with documentation and coding guidelines
          for reporting diagnoses. Id. at § 6.1 (emphasis added).

       While Bravo Health trains and educates physicians on proper coding and
documentation, the fact remains that it is the physicians who control the underlying
medical documentation. While medical record reviews and audits by Bravo Health
help to identify coding errors and deficiencies in documentation, it is unrealistic and
impractical for CMS or the OIG to expect Medicare Advantage Organizations to
review 100% of medical records. Bravo Health Pennsylvania alone currently
processes approximately two million claims per year.

      Allowing alternative sources of information to confirm that a member has a
particular condition and to validate an HCC addresses the over-reliance on
physician coding and documentation practices for RADV purposes. HCCs identify
chronic health care conditions that generally are not curable, such as diabetes,
congenital heart disease, chronic kidney disease and peripheral vascular disease.
These ch1·onic conditions are always present for affected patients, but will not
necessarily be diagnosed or even noted on every medical record. Despite this, the
RADV process precludes submission of anything but a single medical record, even
when the balance of the member's medical record or other records would validate
the HCC. CMS' own guidance recognizes the usefulness of"alternative data
sources," such as diagnostic data and pharmacy records, in validating diagnoses.
See Participant Guide at § 3.2.4. To this end, CMS could accept alternative data
sources for risk adjustment purposes, as well.

       CMS' requirements regarding acceptable records have changed over t ime.
These changing requirements make it difficult for Medicare Advantage
Organizations to develop and implement policies and procedures as well as provider
training. One example of changing CMS requirements is diagnostic radiology.
Diagnostic radiology was an acceptable physician specialty for dates of service
occurring in 2003 through 2005. However, CMS eliminated diagnostic radiology as
an appropriate risk adjustment physician specialty beginning with 2006 dates of
services. Nine of the HCCs that the Draft Report found were not supported are
supported by 1·adiology reports prepared by physicians.




                                          10
                                                                                          Page 11 of37




      C.     The Limitations of the One Best Medical Record Reguirement

       The one best medical record requirement for risk adjustment data validation
limits the breadth and accuracy of the HCCs for Medica1·e beneficiaries. Multiple
records are often needed to verify the accuracy of the HCCs. Furthermore, there
may not be a single medical record that verifies every HCC. For example, the
records of several specialists may be needed to validate the HCC, such as a
diagnosis of diabetes with heart complications. Moreover, as CMS has
acknowledged, pharmacy records and prescription drug data can verify many
conditions such as congestive heart failure and other chronic conditions. See
Participant Guide at § 3.2.4. Hospital records may also shed light on a member's
condition whenever the medical record itself is not sufficiently clear.

      The one best medical record approach is flawed because it leads to false
negatives. Medicare members who have valid HCCs may not need to see a
physician during the data collection period, while others may only see a physician
during the data collection period for something that is not specifically related to the
HCC diagnosis. Under the one best medical record requirement, there would be no
acceptable medicalreco1·d support for these members' HCCs.

       The purpose of medical documentation is to document the patient's condition
and treatment as necessary for clinical purposes. Under standard documentation
practices, there is no requirement that a patient's underlying diagnosis be "re­
documented" in every record every year. In fact, in the case of chronic conditions,
the diagnosis will often not be noted each and every year following the initial
diagnosis. Whether such chronic conditions are recorded depends on the care
sought and the treatment rendered during the relevant encounter. The failure to
re-document an underlying medical condition does not mean that the condition has
"gone away." However, under CMS requirements, Medicare Advantage
Organizations are precluded from submitting a record from a prior or subsequent
year containing the relevant diagnosis to substantiate the HCC, or a sworn
statement from the physician that the member had the relevant condition during
the data collection period. This is an unreasonable and unwarranted limitation.
Furthermore, this limitation is contrary to the goal of determining whether the
individual actually had the condition identified by the HCC and ensuring that
payments to Medicare Advantage Organizations accurately reflect their members'
health status.

IV.    Responses to Draft Report's Specific Findings and Recommendations

      The Draft Report cont ains preliminary findings that the risk scores for 72 of
the 100 sampled beneficiaries were invalid because the diagnoses were not
supported by medical records. These unsupported diagnoses were associated with
139 unsupported HCCs. According to the Draft Report, the documentation errors
associated with these 139 HCCs were unsupported diagnosis coding, missing or


                                           11
                                                                                        Page 12 of37




illegible signatuxes and/or credentials, and, for one HCC, no documentation was
provided. The alleged overpayments for the 139 unsupported HCCs were $481,834.
According to the Draft Report, "[b]ased on the unsupported diagnoses identified in
our sample, we estimated that Bravo was overpaid a t least $20,212,876 in [calendar
year] 2007." Draft Report at p. 7.

      Based on the foregoing, the Draft Report recommends that Bravo Health:

      •      refund to the Federal Government $20,212,876 in overpayments, and

      •       modify its policies and proceduxes and improve its cuxrent practices to
              ensuxe compliance with the requil"ements of the Participant Guide.

       Bravo Health disputes the Draft Report's finding of 139 unsupported HCCs
and that it was overpaid by $481,834. Bravo Health also disagrees with the
recommendation that it refund $20,212,876 in alleged overpayments. Fuxthermore,
Bravo Health has improved its policies and procedures and implemented new
policies and procedures in an effort to improve physicians' coding and
documentation practices and to help ensm·e that diagnoses reported to CMS have
app1·opriate clinical suppor t.

      A.      Bravo Health's Policies. Procedures and Programs

      During the calendar year 2007 payment period, Bravo Health employed
systematic and automated proprietary claim edits to verify that each claim included
an ICD-9-CM code. Claims that did not have an ICD-9-CM code were rejected and
returned to the provider fot proper coding. Bravo Health did not aggressively
pursue revenue optimization initiatives that focused on increasing the risk scores of
its members. During the calendar year 2007 payment period, Bravo Health's
internal compliance procedure relating to the quality of diagnoses submitted by
providers was an annual audit of a sample of medical r ecords. This audit was
performed through Bravo Health's Quality Improvement Department. To the
extent the internal audit found errors, providers received education on how to
improve their documentation. 'fhis procedure is still performed today.

       Since the petiod covered by the audit, Bravo Health has implemented the
following:
           • 	 Ptovider Relations Staff: Since 2006, Bravo Health has added
               individuals to its Provider Relations staff who have been trained to
               educate providers regarding required documentation in the medical
               record to support the diagnoses the providers submit on the claim
               form .

           • 	 Bravo Health Personal Health Profile: In the summer of 2009, Bravo
               Health launched a program to increase HCC coding compliance. Bravo


                                          12
                                                                                   Page 13 of37




              Health developed a Personal Health Profile form that primary care
              physicians are asked to complete annually to document Bravo Health
              members' conditions and treatment plans. See Exhibit 7.

           • 	 Clinical Coding Audits: Bravo Health has hired internal certified
               medical record coders who audit medical records in support of
               submitted diagnoses via claims and encounters.

      The above initiatives will improve coding accuracy and documentation
support for HCCs. Moreover, Bravo Health will continue to evaluate its policies and
procedures for improvements consistent with CMS requirements and expectations.
However, we wish to reassert that it is unrealistic and impractical for CMS or the
OIG to expect Bravo Health to review 100% of medical records or to guarantee 100%
HCC accuracy. Bravo Health providers are not coding Bravo Health member
records differently than they are coding records for their FFS patients and
therefore, an error rate consistent with FFS should be expected.
      B.      Bravo Health's Response to Alleged Unsupported HCCs

      Set forth below is Bravo Health's l'esponse to each of the Draft Report's
findings of an unsupported HCC. In a number of cases, Bravo Health's r esponse
includes information already provided to the OIG, but which was apparently either
not considered Ol' determined to be inadequate by the OIG's MRC. However, Bravo
Health continues to believe that the documentation it provided supported the
diagnosis and validated the HCC. In other cases, Bravo Health has provided a
physician signature attestation in the CMS-required format to address unsupported
HCCs due to missing or illegible signatures and/or credentials. As noted above, the
OIG previously informed Bravo Health that it would not invalidate an HCC for a
missing or illegible signature and/or credential. Finally, Bravo Health has included
other physician or medical record documentation that supports the alleged
unsupported HCCs.




                                          13 

                                                                                                              Page 14 of37




                                                            Draft Report
                                                                 Finding10
                                                                                    Bravo Health
        HCC                                                 A      B     c           Response
                                                                              Documenration submitted for
                                                                              encounter dated 11 /7/06
                                                                              (progress note dated 11/ 15/06)
                                                                              suppOrtS HCC 131. However,
   1     Renal Failure                                             X
                                                                              there is no provider signature on
                                                                              the dictated progress note so
                                                                              Bravo Health obtained a
                                                                              signature attestation.
                                                                              Documentation submitted was
                                                                              for a pathology report but there
                                                                              was no indication o f HCC 10.5.
   2     Vascular Disease                                   X                 Therefo re Bravo Health
                                                                              submitted a diagnosis attestation
                                                                              to support HCC 10.5.
                                                                              Documentation submitted did
                                                                              not support HCC 108, therefore
   3     Chronic Obstructive Pulmonary Disease                          X"    Bravo Health obtained a
                                                                              diagnosis attestation.
                                                                              Documentation submitted did
                                                                              not support IICC 80. Bravo
   4     Congestive Heart Failure                           X
                                                                              Health was unable to obtain a
                                                                              diagnosis anestation.

                                                                              No documentation submitted to
                                                            X                 support HCC 108. Bravo Health
   5     Chronic Obstructive Pulmonary Disease              12                was unable to obtain a
                                                                              chart/ diagnosis attestation.
                                                                              Documentation submitted for
                                                                              encounter dated 11/ 20/06
                                                                              supports HCC I 05. However,
                                                                              there is no provider signature on
   6     Vascular Disease                                          X          the dictated progress note.
                                                                              Bravo Health was unable to
                                                                              obtain signature attestation.
                                                                              Doctor is retired and is no longer
                                                                              practicing.



10 Key: A     =Unsupported diagnosis coding; B =Missing signature and/or credentials; C =No documentation 

provided. 

II Per the spreadsheet provided to Bravo Health by the OIG , it is Bravo Health's understanding that 

the finding should be categorized as "A" and not "C". 

12 Per the spreadsheet provided to Bravo Health by the OIG, it is Bravo Health's understanding that 

the finding should be categori?.ed as "C" and not "A". 



                                                       14
                                                                                                     Page 15 of37




                                                      Draft Report
                                                          FindinglO
                                                                            Bravo Health
     ~cc                                              A     B     c          Response
                                                                      Documentation submitted for
                                                                      encounter dated 4/17/06
     Diabetes With Ophthalmologic or Unspecified                      supports HCC 18. However,
7                                                           X
     Manifestation                                                    there is no provider signature so
                                                                      Bravo Health obtained a
                                                                      signature attestation.
                                                                      Documentation submitted did
                                                                      not support HCC 80, therefore
8    Congestive Heart Failure                         X
                                                                      Bravo Health submitted a
                                                                      diagnosis attestation.

                                                                      Documentation submitted for
                                                                      encounter dated 9/18/06
                                                                      supports HCC 92. The
                                                                      documentation notes "SVf".
                                                                      The documentation has a
                                                                      signature but no credentials.
9    Specified Heart Arrhythmias                      X
                                                                      Bravo r lealth was unable to
                                                                      obtain a signarure attestation.
                                                                      T he documentation is from an
                                                                      ER visit so Bravo Health was not
                                                                      able to locate a physician to sign
                                                                      the attestation.
                                                                      Documentation submitted for
                                                                      encounter dated 12/06/06
                                                                      supports HCC 19. The
10   Diabetes Without Complication                    X               documentation notes that the
                                                                      patient's past medical history is
                                                                      "significant for Diabetes
                                                                      Mellitus".
                                                                      Documentation submitted for
                                                                      the encounter dated 11/22/06
11   Intestinal Obsttucr:ion/Perforation              X               supports HCC 31. The
                                                                      documentation notes "Bowel
                                                                      Obstruction".
                                                                      Documentation submitted for
                                                                      the encounter dated 3/26/06­
                                                                      3/31/06 supports HCC 105.
12   Vasculu Disease                                  X
                                                                      The documentation notes
                                                                      "Peripheral Vascular Disease" in
                                                                      the discharge summary.

     Lymphatic, Head and Neck, Brain, and Other                       Documentation submitted did
13                                                    X     X
     Major Cancers                                                    not support HCC 9.



                                                   15 

                                                                                                          Page 16 of37




                                                          Draft Report
                                                           F indinglo
                                                                               Bravo H ealth
     HCC                                                  A   B    c            Response
                                                                         Documentation submitted for
                                                                         the encounter dated 3/ 02/ 06
                                                                         supports HCC \9. The
                                                                         documentation notes "DM" on
14   Diabetes Without Complication                        X              the medical chart. This
                                                                         documentation contains a
                                                                         signature but no credentials so
                                                                         Bravo Health obtained a
                                                                         signature attestation.
                                                                         Documentation submitted did
     Diabetes With Renal or Peripheral Circulatory                       not support HCC 15, therefore
15                                                        X
     Manifestation                                                       Bravo Health submitted a
                                                                         diagnosis attestation.

                                                                         Documentation submitted for
                                                                         the encounter dated 3/ 21 / 06
                                                                         supports HCC 18. The
                                                                         documentation notes ''DM" and
                                                                         "glaucoma". This documentation
     Diabetes With Ophthalmologic or Unspecified
\6                                                        X              does not contain a signature or
     Manifestation
                                                                         credentials. Bravo Health was
                                                                         unable to obtain a signarure
                                                                         attestation. OIG gave credit for
                                                                         HCC 19 in the payment
                                                                         calcularion.

                                                                         Documentation submitted did
     Rheumatoid Arthritis and Inflammamry                                not support HCC 38, therefore
17                                                        X
     Connective Disease Tissue                                           Bravo Health submitted a
                                                                         diagnosis attestation.

                                                                         Documentation submitted did
                                                                         not support HCC 92. Bravo
18   Specified Heart Arrhythmias                          X
                                                                         Health was unable to obt~n a
                                                                         diagnosis attestation.
                                                                         Documentation submitted did
                                                                         not support HCC 19. Bravo
19   Diabetes Without Complication                        X
                                                                         Health WllS unable to obtain a
                                                                         diagnosis attestation.
                                                                         Documentation submitted did
     Lung, Upper Digestive Tract, and Other Severe        X
                                                                         not support HCC 8. Bravo
20                                                            X
     Cancers                                                             Health was unable to obtain a
                                                                         diagnosis attestation.




                                                     16
                                                                                                        Page 17 of37




                                                         Draft Report
                                                          F indinglo
                                                                              Bravo Health
     ~cc                                                 A   B    c            Response
                                                                        Document2tioo submitted for
                                                                        the encounter dated 4/2/06 is a
                                                                        radiology report that supports
21   Ischemic or Unspecified Stroke                      X   X
                                                                        HCC 96. Bravo I Iealtb was
                                                                        unable to obtain a diagnosis
                                                                        attestation.
                                                                        Documentation submitted for
                                                                        the encounter dated 11/22/06
                                                                        supports HCC 148. TI1e
                                                                        documentation notes "Decubirus
                                                                        ulcer". This documentation
22   Decubitus Ulcer ofSkin                              X   X
                                                                        contains a signarure but no
                                                                        credentials. Bravo Health was
                                                                        unable to obtain a signarure
                                                                        arrestation. Bravo Health was
                                                                        unable ro locate the doctor.

                                                                        Documentation submitted for
                                                                        the encounter dated 1/30/06 is a
23   Vascular Disease                                    X
                                                                        radiology report that supports
                                                                        HCC 105.

                                                                        D ocumen tation submitted did
     Breast, Prostate, Colorectal, and Other Cancers                    not support HCC 10, therefore
24                                                       X
     and Tumors                                                         Bravo Health submitted a
                                                                        diagnosis attestation.

                                                                        Documentation submitted did
                                                                        not support HCC 69. Bravo
25   Spinal Coed Disorders/ Injuries                     X
                                                                        Health was unable to obtain a
                                                                        diagnosis attestation.
                                                                        Documentation submitted did
26   Vascular Disease With Complications                 X              not support HCC 104, but did
                                                                        support a lower HCC 105.
                                                                        D ocumentation submitted did
     Diabetes With Renal or l>eripheral Circulatory                     not support HCC 15. Bravo
27                                                       X
     Manifestation                                                      Health was able to obtain a
                                                                        diagnosis attestation.
                                                                        Documentation submitted did
     Unstable Angina and Other Acute Ischemic I lean
28                                                   X                  not support HCC 82 but did
     Disease
                                                                        support a lower HCC 83.




                                                      17 

                                                                                               Page 18 of37




                                                Draft Report
                                                 Findi ng•o
                                                                     Bravo Heal th
     ~cc                                        A   B    c            Response
                                                               Documeoution submitted did
                                                               not support HCC 131 , therefore
29   Renal Failure                              X
                                                               Bravo Health submitted a
                                                               diagnosis attestation.

                                                               Documentation submitted for
                                                               the encounters dated 9/26/06
30   Diabetes Without Complication              X
                                                               and 10/11/06 support HCC 19
                                                               and higher payment HCC 18.
                                                               Documentation submitted did
                                                               not support HCC 105, therefore
31   Vascular Disease                           X
                                                               Bravo r lealrh submitted a
                                                               diagnosis auesution.

                                                               Documentation submitted did
32   Congestive Heart Failure                   X
                                                               not support HCC 80.

                                                               Documentation submitted for
                                                               the encounter dated 10/16/06
                                                               supports HCC 131. The
                                                               documentation notes "acute renal
33   Renal Failure                              X
                                                               failure" and the diagnostic study
                                                               has been interpreted by the
                                                               attending physician as noted at
                                                               the end of the report.
                                                               Documentation submitted for
                                                               the encounter dated 8/ 31/06
                                                               supports HCC 38.
     Rheumatoid Arthritis and Inflammatory
34                                                  X          Documentation contains a
     C.onncccivc Disease Tissue
                                                               signature but no credentials.
                                                               Bravo Healdt obtained a
                                                               signature attestation.
                                                               Documentation submitted did
                                                               not support HCC 71. Bravo
35   Polyneuropathy                             X
                                                               Health obtained a diagnosis
                                                               attestation.




                                             18 

                                                                                                  Page 19 of37




                                                   Draft Report
                                                    Finding1 o
                                                                        Bravo Healt h
     ~cc                                          A       B   c          Response
                                                                  Documentation submitted did
                                                                  not support HCC 80, therefore
                                                                  Bravo Health submitted a
                                                                  diagnosis attestation. Letter
36   Congestive Heart Failure                      X      X
                                                                  from the provider attached with
                                                                  the attestation form that justifies
                                                                  the diagnosis code assigned to
                                                                  HCC80.

                                                                  Documentation submitted did not
                                                                  support HCC 82, therefore Bravo
                                                                  Health submitted a diagnosis
                                                                  attestation. Letter from the
                                                                  provider attached with the
                                                                  attestation foon that justifies the
     Unstable Angina and Other Acute Ischemic Hear1               diagnosis code assigned to HCC
37                                                  X
     Disease                                                      82. However, there was
                                                                  documentation to support lower
                                                                  payment HCC 83. lbis
                                                                  documentation was an electronic
                                                                  medical record. OIG did not
                                                                  include HCC 83 in the payment
                                                                  calculation.

                                                                  Documentation submitted for
                                                                  the encounter dated 8/31/06
                                                                  suppoxrs HCC 108.
38   Cluonic Obstructive Pulmonary Disease                X       Documentation contains a
                                                                  signature but no credentials so
                                                                  Bravo Health obtained a
                                                                  signature attestation.
                                                                  Documentation submitted did
39   Diabetes Without Complication                    X
                                                                  not support HCC 19.

                                                                  Documentation submitted did
40   Ischemic or Unspecified Stroke                   X
                                                                  not support HCC 96.

                                                                  Documentation submitted did
41   Chronic Obstructive Pulmonary Disease            X
                                                                  not support HCC 108.

                                                                  Documentation submitted did
42   Chronic Ulcer ofSkin, Except Decubitus           X
                                                                  not support HCC 149.




                                               19 

                                                                                                            Page 20 of37




                                                           D r aft Report
                                                               Finding•o
                                                                                  Bravo H e alth
     ace                                                A        B     c           Response
                                                                            Documentation submitted did
     Breast, Prosmte, Colorectal, and Other Cancers                         not support IICC 10. Bravo
43                                                         X
     and Tumors                                                             Health was unable to obtain a
                                                                            diagnosis attestation.

                                                                            Documentation submitted did
     Breast, Proslllte, Colorectal, and Other Cancers                       not support HCC 10, therefore
44                                                         X
     and Tumors                                                             Bravo Health submitted a
                                                                            diagnosis attestation.

                                                                            Documentation submiucd did
     Unstable Angina and Other Acute Ischemic Hean                          nor support HCC 82. Bravo
45                                                 X             X
     Disease                                                                Health was unable to obtain a
                                                                            diagnosis attestation.

                                                                            DOCllmentation submitted for
                                                                            the encounter dated 8/29/06
46   Chronic Obstructive Pulmonary Disease              X                   suppom HCC 108. The
                                                                            documentation notes "COPD"
                                                                            on the medical record.
                                                                            Documentation sub mitted did
     Rheumatoid A.cthritis and Inflammatory                                 not support H CC 38, therefore
47                                                         X     X
     Connective Disease Tissue                                              Bravo H ealth submitted a
                                                                            diagnosis attestation.

                                                                            Documentation submitted for
                                                                            the encounter dated 1/25/06
                                                                            supports HCC 105.
48   Vascular D isease                                           X          D ocumentation contains a
                                                                            signature but no credentials, so
                                                                            Bravo Health obtained a
                                                                            signature attestation.
                                                                            Doct1mentation submitted did
                                                                            not support I ICC 80, therefore
                                                                            Bravo Health submitted a
49   Congestive Heart Failure                              X                diagnosis attestation. Physician
                                                                            letter submitted with diagnosis
                                                                            attes tation on 6/11/09 also
                                                                            supportS HCC 80.




                                                    20 

                                                                                                     Page 21 of37




                                                      Draft Report
                                                       Finding'o
                                                                           Bravo Health
     IHcc                                             A   B    c            Respons e
                                                                     Documen1:2tion submitted did
                                                                     not support HCC 82, therefore
                                                                     Bravo Health submitted a
     Unstable Angina and Other Acute ischemic Hear1
50                                                  X                diagnosis attestation. Physician
     Disease
                                                                     letter submitted with diagnosis
                                                                     attestation on 6/11/09 also
                                                                     supports HCC 82.
                                                                     Docurnenmcion submitted for
                                                                     the encounter dated 1/15/06
                                                                     supports I ICC 82. The EKG
     Unst2ble Angina and Other Acute Ischemic Hear
51                                                 X      X          report notes "inferior infarct, age
     Disease
                                                                     undetermined" and the report
                                                                     has been confirmed by a MD as
                                                                     noted on the report.
                                                                     OO<:Umenll!tion submitted did
                                                                     not support HCC 96. Bravo
52   Ischemic or Unspecified Stroke                   X
                                                                     Health was unable to obtain a
                                                                     diagnosis attestation.
                                                                     Documentation submitted did
                                                                     not support HCC 104, therefore
53   Vascular Disease With Complications              X
                                                                     Bravo Health submitted a
                                                                     diagnosis attesll!tion.
                                                                     DO<:Umeotation submitted for
                                                                     the encounter dated 3/ 15/ 06 is a
54   Vascular Disease                                 X   X
                                                                     radiology report that supports
                                                                     HCC 105.

                                                                     OO<:Umenration submitted did
     Lung, Upper Digestive Tract, and Other Severe                   not support HCC 8, therefore
55                                                    X
     Cancers                                                         Bravo Health submitted a
                                                                     diagnosis attesll!tion.

                                                                     Document2tion submitted did
                                                                     not support HCC 32, therefore
56   Pancreatic Disease                               X
                                                                     Bravo Health submitted a
                                                                     diagnosis attestation.




                                                 21
                                                                                                      Page 22 of37




                                                       Draft Report
                                                        Findingto
                                                                            Bravo Health
     !Hcc                                           A      B    c            Response
                                                                      Documentation submitted for
                                                                      encounter dated 2/17/06
                                                                      supports HCC 55. The
                                                                      documentation notes "major
                                                                      depression" under the
                                                                      assessment section of the
     Major Depressive, Bipolar, and Paranoid
57                                                     X   X          electronic medical record. Dr.
     Disorders
                                                                      Mercado's office considers his
                                                                      typed name on the electronic
                                                                      record as his signature for
                                                                      records with dates ofservice in
                                                                      2006. Nevertheless, Bravo Health
                                                                      has a signature attestation on file.
                                                                      Documentation submitted for
                                                                      encounter dated 2/17/06
                                                                      supports HCC 80. Dr.
                                                                      Mercado's office considers his
58   Congestive Heart Failure                              X          typed name on the electronic
                                                                      record as his signature for
                                                                      records with dates ofservice in
                                                                      2006. Nevertheless, Bravo Health
                                                                      has a signature attestation on file.
                                                                      Documentation submitted did
                                                                      not support HCC 31. Bravo
59   Intestinal Obstruction/Perforation                X   X
                                                                      Health was unable to obtain a
                                                                      diagnosis attestation.
                                                                      Documentation submitted did
                                                                      not support HCC 80, therefore
60   Congestive Heart Failure                          X
                                                                      Bravo Health submitted a
                                                                      diagnosis attestation.

                                                                      Documentation submitted did
     Unstable Angina and Other Ac.:ute Ischemic Hearl                 not support HCC 82, therefore
61                                                    X
     Disease                                                          Bravo Health obtained a
                                                                      diagnosis attestation.
                                                                      Documentation submitted did
                                                                      not support HCC 104. Bravo
62   Vascular Disease With Complications               X
                                                                      Health was unable to obtain a
                                                                      dial!'llosis attestation.




                                                22 

                                                                                                         Page 23 of37




                                                          Draft Report
                                                           Findingto
                                                                               Bravo H ealth
     IHCC                                              A      B    c            Res p on se
                                                                         Documentation submitted for
                                                                         encounter dated 4/10/06
                                                                         supports HCC 10. The
                                                                         documentation notes "breast
     Breast, Prostate, Colorectal, and Other Cancers
63                                                        X              cancer" under the diagnosis
     andTwnors
                                                                         section of a preanesthesia
                                                                         evaluation fom1. Bravo Health
                                                                         also obtained an attestation for
                                                                         signature.
                                                                         Documentation submitted for
                                                                         the encounter dated 9/20/06
                                                                         supports HCC 83. The
64   Angin2 Pectoris/Old Myoaudiallnfarction              X   X
                                                                         documentation notes past
                                                                         medical history of "MI" ~vo
                                                                         times within the chan.
                                                                         Documentation submitted did
                                                                         not support HCC 19, therefore
65   Diabetes Wilhout Complication                        X
                                                                         Bravo Health submitted a
                                                                         diagnosis attestation.

                                                                         Documentation submitted for
                                                                         encounter dated 5I 31 I 06
                                                                         supports HCC 96.
66   Ischemic or Unspecified Stroke                           X          Documentation contained a
                                                                         signature but no name or
                                                                         credentials so Bravo Health
                                                                         obtained a signature attestation.

                                                                         Documentation submitted did
                                                                         not support IICC 105. Bravo
67   Vascular Disease                                     X   X
                                                                         Health was unable to obtain a
                                                                         diagnosis attestation.
                                                                         Documentation submitted for
                                                                         the encounter dated 4/30/06 is a
68   Chronic Obstructive Pulmonary Disease                X              radiology report that supports
                                                                         HCC 108. The documentation
                                                                         notes "COPD".
                                                                         Documentation submitted for
                                                                         the encounter dated 3/6/06
                                                                         supports HCC 19. The
69   Diabetes Without Complication                        X
                                                                         documentation notes past
                                                                         medical history of "Diabetes with
                                                                         neuropathy".




                                                   23 

                                                                                                     Page 24 of37




                                                    D r a ft Report
                                                      Fin d ingio
                                                                            Bravo Healt h
     HCC                                         A      B       c            Response
                                                                      Documentation submitted for
                                                                      encounter dated 11/16/06
                                                                      supports HCC 80. However,
70   Congestive Heart Failure                            X            there is no provider signature on
                                                                      the progress note. Bravo Health
                                                                      was unable to obtain a signature
                                                                      attestation. Doctor has retired.
                                                                      Documentation submitted for
                                                                      encounter dated 6/5/06
                                                                      supports HCC 105. However,
                                                                      there is no provider signature
71   Vascular Disease                                    X
                                                                      on tbe progress note. Bravo
                                                                      Health was unable to obtain a
                                                                      signature attestation. Doctor
                                                                      bas retired.

                                                                      Documentation submitted did
                                                                      not support HCC 80, therefore
                                                                      Bravo Health submitted a
                                                                      diagnosis attestation.
72   Congestive Heart Failure                       X                 Physician letter s ubmitted
                                                                      with the diagnosis attestation
                                                                      on 6/11/09 also supports HCC
                                                                      80.
                                                                      Documentation submitted did
     Unstable Angina and Other Acute Ischemic                         not support HCC 82, therefore
73                                            X
     Heart Disease                                                    Bravo Health obtained a
                                                                      diagnosis attestation.
                                                                      Documentation submitted did
                                                                      not s upport HCC 37, therefore
74   Bone/Joint/Muscle Infections/Necrosis          X
                                                                      Bravo Health submitted a
                                                                      diagnosis attestation.
                                                                      Documentation submitted did
                                                                      not support HCC 83, therefore
75   Angina Pectoris/Old Myocardial Infarction      X    X            Bravo Health submitted a
                                                                      diagnosis attestation.
                                                                      Documentation submitted did
                                                                      not support HCC 104, therefore
76   Va.s cular Disease With Complications          X                 Bravo I lealth submitted a
                                                                      diagnosis attestation.
                                                                      Documentation submitted did
77   Chronic Obstructive Pulmonary Disease          X
                                                                      not support I-ICC 108.




                                             24 

                                                                                                       Page 25 of37




                                                      Draft R e port
                                                       F inding 10
                                                                             Bravo Health
     ~cc                                          A       B      c            R espon se
                                                                       Documentation submitted for
                                                                       the encounter dated 11/2/06
                                                                       supports HCC 149. The
                                                                       documencation notes that the
78   Chronic Ulcer of Skin, Except Decubitus          X
                                                                       patient has "peripheral vascular
                                                                       disease and ulcer on the right
                                                                       heel". OIG accepted this HCC
                                                                       initially but later dismissed it.

                                                                       Documentation submitted for
                                                                       encounters dated 7/13/06 and
                                                                       12/5/06 support HCC 105.
79   Vascular Disease                                      X           However, there is no provider
                                                                       signature on the progress
                                                                       note. Bravo Health obtained
                                                                       an attestation.

                                                                       Documentation submitted for
                                                                       the encounter dated 11/22/06
                                                                       is a radiology report that
                                                                       supports HCC 75. The
80   Coma, Brain Compression/Anoxic Damage            X
                                                                       documentation (CT scan) notes
                                                                       "multiple hemorrhagic lesions
                                                                       in the brain with significant
                                                                       vasogenic edema".

                                                                       Documentation submitted for
                                                                       encounter dated 6/30/06
                                                                       supports HCC 108. This
                                                                       documentation contains a
81   Chronic Obstructive Pulmonary Disease                 X
                                                                       signature but no name and
                                                                       credentials, so Bravo Health
                                                                       obtained a signature
                                                                       attestation.
                                                                       Documentation submitted for
                                                                       encounter dated 7/28/06
                                                                       supports HCC 181. The
                                                                       documentation notes "CRI" in
                                                                       the progress note. This
82   Renal Failure                                    X
                                                                       documentation contains a
                                                                       signature but no name and
                                                                       credentials so Bravo Health
                                                                       obtained a signature
                                                                       attestation.




                                               25 

                                                                                                Page 26 of37




                                                  D raft R epor t
                                                    F indinglo
                                                                         Bravo H e alth
     IHCC                                         A       B   c            Response
                                                                    Documentation submitted did
                                                                    not support HCC 83. Bravo
                                                                    Health was unable to obtain a
83   Angina Pectoris/Old Myocardial Infarction        X             diagnosis attestation. Claim
                                                                    is from a hospital hence not
                                                                    able to locate a physician to
                                                                    sign the attestation.
                                                                    Documentation submitted for
                                                                    encounter dated 9/26/06
                                                                    supports HCC 16. This
                                                                    documentation contains a
     Diabetes With Neurologic or Other
84                                                        X         signature but no name and
     Specified Manifestation
                                                                    credentials. Bravo Health
                                                                    tried to obtain a signature
                                                                    attestation but the doctor
                                                                    retired.
                                                                    Documentation submitted for
                                                                    encounter dated 9/26/06
                                                                    supports HCC 18. This
                                                                    documentation contains a
     Diabetes With Ophthalmologic or
85                                                        X         signature but no name and
     Unspecified Manifestation
                                                                    credentials. Bravo Health
                                                                    t ried to obtain a signature
                                                                    attestation but the doctor
                                                                    retired .
                                                                    Documentation submitted did
     Lung, Upper Digestive Tract, and Other                         not support HCC 8. Bravo
86                                                    X             Health was unable to obtain a
     Severe Cancers
                                                                    diagnosis attestation.
                                                                    Documentation submitted did
     Breast, Prostate, Colorectal, and Other                        not support HCC 10. Bravo
87                                                    X             Health was unable to obtain a
     Cancers and Tumors
                                                                    diagnosis attestation.
                                                                    Documentation submitted for
                                                                    the encounter dated 6/22/06
     Major Complications of Medical Care and                        did not support HCC 164.
88                                                    X
     Trauma                                                         Bravo Health was unable to
                                                                    obtain a diagnosis attestation.




                                               26 

                                                                                                    Page 27 of37




                                                      Draft Report 

                                                       F inding•o 

                                                                             Bravo H ealth
     !HCC                                         A       B     c             Response
                                                                       Documentation submitted for
                                                                       the encounter dated 10/9/06
                                                                       supports HCC 74.
                                                                       Documentation contains a
89   Seizure Disorders and Convulsions                    X
                                                                       signature but no name and
                                                                       credentials, so Bravo Health
                                                                       obtained a signature
                                                                       attestation.
                                                                       Documentation submitted for
                                                                       the encounter dated 10/9/06
                                                                       supports HCC 100. The
                                                                       documentation notes "right
                                                                       hemiparesis". This
90   Hemiplegia/Hemiparesis                           X   X            documentation contains a
                                                                       signature but no name and
                                                                       credentials and is also missing
                                                                       beneficiary name so Bravo
                                                                       Health obtained a signature
                                                                       attestation.
                                                                       Documentation submitted for
                                                                       the encounter dated 6/4/06
                                                                       supports HCC 105. The
                                                                       documentation notes "PVD".
                                                                       Documentation contains a
91   Vascular Disease                                 X   X
                                                                       signature but no name and
                                                                       credentia.ls and is also missing
                                                                       beneficiary name so Bravo
                                                                       Health obtained signature and
                                                                       diagnosis attestations.
                                                                       Documentation submitted did
                                                                       not support HCC 105. Bravo
92   Vascular Disease                                 X   X
                                                                       Health was unable to obtain a
                                                                       diagnosis attestation.
                                                                       Documentation submitted did
     Major Complications ofMedical Care and                            not support HCC 164. Bravo
93                                                    X
     Trauma                                                            Health was unable to obtain a
                                                                       diagnosis attestation.

                                                                       Documentation submitted for
                                                                       the encounter dated 1116/06
     Major Depressive, Bipolar, and Paranoid                           s upports HCC 55. The
94                                                    X
     Disorders                                                         documentation notes "major
                                                                       depression" within the medical
                                                                       update section of the record.




                                               27 

                                                                                                Page 28 of37




                                                    Draft Report
                                                     Findingto
                                                                        Bravo Healt h
     HCC                                         A      B    c           Response
                                                                   Documentation submitted for
                                                                   the encounter dated 9/2/06
                                                                   supports HCC 74. The
                                                                   documentation notes
                                                                   "seizures". However, there is
                                                                   no provider signature on the
95   Seizure Disorders and Convulsions              X   X
                                                                   progress note. Bravo Health
                                                                   was unable to obtain an
                                                                   attestation. Doctor states that
                                                                   his partner is no longer
                                                                   working with him and the
                                                                   chart belongs to his partner.
                                                                   Documentation submitted for
                                                                   the encounter dated 9/20/06
                                                                   did not support HCC 96.
96   Ischemic or Unspecified Stroke                 X              Bravo Health was unable to
                                                                   obtain a diagnosis attestation.
                                                                   The physician is no longer
                                                                   working at the same office.
                                                                   Documentation submitted for
                                                                   the encounter dated 4/9/06
97   Angina Pectoris/Old Myocardial Infarction      X              supports HCC 83. The
                                                                   documentation notes "unstable
                                                                   angina" in the admission note.
                                                                   Documentation submitted for
                                                                   the encounter dated 12/14106
98   Chronic Obstructive Pulmonary Disease          X              is a radiology report that
                                                                   supports HCC 108.
                                                                   Documentation submitted for
                                                                   the encounter dated 2/6/06
                                                                   supports HCC 131.
                                                                   Documentation contains a
99   Renal Failure                                      X
                                                                   signature but no name and
                                                                   credentials, so Bravo Health
                                                                   obtained a signature
                                                                   attestation.




                                             28 

                                                                                             Page 29 of37




                                                 Draft R eport
                                                  Findingto
                                                                      Bravo H ealth
    !Hcc                                     A       B     c           R esponse
                                                                 Documentation submitted for
                                                                 the encounter dated 10/9/06
                                                                 supports HCC 19. The
                                                                 documentation notes 250.00
                                                                 diagnosis code by a podiatrist
100 Diabetes Without Complication                X               who was performing diabetic
                                                                 foot care. This documentation
                                                                 contains a signatu.re but no
                                                                 name and credentials so Bravo
                                                                 Health obtained a signature
                                                                 attestation.
                                                                 Documentation submitted did
                                                                 not support HCC 96, therefore
101 Ischem ic or Unspecified Stroke              X
                                                                 Bravo Health submitted a
                                                                 diagnosis attestation.
                                                                 Documentation submitted for
                                                                 encounter dated 7/19/06 did
102 Vascular Disease With Complications          X
                                                                 not support HCC 104 but did
                                                                 support a lower HCC 105.
                                                                 Documentation submitted did
                                                                 not support HCC 80, therefore
                                                                 Bravo Health submitted a
                                                                 diagnosis attestation.
103 Congestive Heart Failure                     X
                                                                 Physician letter submitted
                                                                 with the diagnosis attestation
                                                                 on 6/1 1/09 also supports HCC
                                                                 80.
                                                                 Documentation submitted did
    Unstable Angina and Other Acute Ischemic                     not support HCC 82, therefore
104                                          X
    Heart Disease                                                Bravo Health obtained a
                                                                 djagnosis attestation.
                                                                 Documentation submitted for
                                                                 the encounter dated 8/28/06
                                                                 supports HCC 105. The
105 Vascular Disease                             X               documentation notes "Aortic
                                                                 Root and Valve are Sclerotic"
                                                                 that is assigned an ICD-9 code
                                                                 of 440.0 and HCC 105.




                                          29 

                                                                                                         Page 30 of37




                                                         Draft Report
                                                          F inding•o
                                                                               Bravo Health
      ~cc                                                A       B   c          Response
                                                                         Documentation submitted did
                                                                         not support HCC 92. Bravo
                                                                         Health was unable to obtain a
106 Specified Heart Arrhythmias                          X       X       diagnosis attestation.
                                                                         Physician noted a billing error
                                                                         as the cause of incorrect
                                                                         diagnosis code on the claim.
                                                                         Documentation submitted did
                                                                         not support HCC 96, therefore
107 Isch emic or Unspecified Stroke                      X
                                                                         Bravo Health submitted a
                                                                         diagnosis attestation.

                                                                         Documentation submitted did
                                                                         not sup port HCC 108, therefore
108   Chronic Obstructive Pulmonary Disease                  X
                                                                         Bravo Health submitted a
                                                                         diagnosis attestation.
                                                                         Documentation submitted for
                                                                         the encounter dated 9/V/06
                                                                         supports HCC 15. The
                                                                         documentation notes "Diabetes
                                                                         Mellitus type 2 w/periph eral
                                                                         circulatory disease, uncontrolled­
      Diabetes With Renal or Peripheral Circulatory
109                                                          X   X       250.72 (primary)". Dr.
      Manifestation
                                                                         Mercado's office considers his
                                                                         typed name o n !he electronic
                                                                         record as his signature for
                                                                         records with dates of service in
                                                                         2006. Nevertheless, Bravo Health
                                                                         has a signarure attestation on file.
                                                                         Documentation submitted for
                                                                         the encounter dated 6/12/06
                                                                         supports HCC 7 J.
110   Polyneuropathy                                             X       Documentation contains a
                                                                         signature but no name and
                                                                         credentials, so Bravo Health
                                                                         obtained a signature attestation.




                                                      30 

                                                                                                        Page 31 of37




                                                     Draft R e p ort
                                                      Findingto
                                                                             Bravo H ealth
      HCC                                        A        B      c            Response
                                                                       Documemation submitted for
                                                                       the encounter dated 10/27/06
                                                                       supports HCC 105. The
                                                                       documentation notes "Diabetes
                                                                       Mellitus type 2 w I peripheral
                                                                       citculatoty disease, uncontrolled­
                                                                       250.72 (primacy)" and "peripheral
111   Vascular Disease                                X    X
                                                                       vascular disease". Dr. Mercado's
                                                                       office considers his typed name
                                                                       on the electronic record as his
                                                                       signature for records with dates
                                                                       of service in 2006. Nevertheless,
                                                                       Bravo Health has a signature
                                                                       attestation on file.
                                                                       Documentation submitted for
                                                                       the encounter dated 12/18/06
                                                                       supports HCC 108. The
                                                                       documentation notes "COPD
                                                                       (Chronic Obstructive Puhnonary
                                                                       Disease)-496 (Primary)". Dr.
112   Chronic Obstructive Pulmonary Disease                X
                                                                       Mercado's office considers his
                                                                       typed name on the electronic
                                                                       record as his signature for
                                                                       records with dates of service in
                                                                       2006. Nevertheless, Bravo Health
                                                                       has a signature attestation on file.
                                                                       Documentarion submitted for
                                                                       the encounters dated 11/W/06
                                                                       and 12/21/06 support HCC 19.
113   D iabetes Without Complicarion                       X           However, there is no provider
                                                                       signature on the progress note,
                                                                       so Bravo Health obtained a
                                                                       signature attestation.
                                                                       Documentation submitted did
                                                                       not support HCC 80. Bravo
114   Congestive Heart Failure                        X
                                                                       Health was unable to obtain a
                                                                       diagnosis attestation.




                                              31 

                                                                                                    Page 32 of37




                                                     Draft Report
                                                      Findingto
                                                                          Bravo Health
      HCC                                        A        B   c            Response


                                                                    Documentation submitted for
                                                                    the encounter dated 9/27/06
                                                                    supports HCC 95. The
                                                                    documentation notes "Stroke,
                                                                    hemorrhagic 431 (primary)". Dr.
115   Cerebral Hemorrhage                             X             Mercado's o ffice considers his
                                                                    typed name on the electronic
                                                                    record as his signature for
                                                                    records with dates of service in
                                                                    2006. Nevertheless, Bravo Health
                                                                    has a signature attestation on file.


                                                                    Documentation submitted for
                                                                    the encounter dated 11/29/06
                                                                    supports IICC 96. The
                                                                    documentation notes "CVA
                                                                    (Cerebrovascular accident) Nos­
                                                                    436". Dr. Mercado's office
116   Ischt.'t'tlic or Unspecified Stroke             X
                                                                    considers his typed name on the
                                                                    electronic record as his signature
                                                                    for records with dates ofservice
                                                                    in 2006. Nevertheless, Bravo
                                                                    Health has a signature attestation
                                                                    on file.
                                                                    Documentation submitted for
                                                                    the encounter dated 12/7/06
                                                                    supports TJCC 100. This
117   Hemiplegia/Hemiparesis                              X         documentation notes "Left
                                                                    hemiparesis" under the past
                                                                    medical history section and the
                                                                    note is signed by an MD.
                                                                    Documentation submitted did
                                                                    not support HCC 105, therefore
118   Vascular Disease                                X
                                                                    Bravo Health submitted a
                                                                    diagnosis attestation.
                                                                    Documentation submitted did
                                                                    not support !ICC 108, therefore
119   Chronic Obstructive Pulmonary Disease           X
                                                                    Bravo Health submitted a
                                                                    diagnosis attes tation.




                                              32 

                                                                                                              Page 33 of37




                                                             Draft R e port
                                                              Findingio
                                                                                    Bra vo Health
      HCC                                                A        B     c            R esponse
                                                                              Documenration submitted did
      Diabetes With Neurologic or Other Specified                             not support HCC 16. Br.avo
120                                                           X
      Man.ifesration                                                          Health was unable to obrain a
                                                                              diagnosis attestation.
                                                                              Documentation submitted did
                                                                              not support HCC 80. Bravo
121   Congestive Heart Failure                                X
                                                                              Health was unable to obtain a
                                                                              diagnosis attesration.

                                                                              Documentation submitted for
                                                                              the encowlter dated 9/7/06
                                                                              (signed 9/8/06) supports HCC
                                                                              83. The documenration notes
                                                                              "atypical angina" under the
122   Angina Pecroris/ Old Myocardial Infarction              X
                                                                              diagnosis section of the medical
                                                                              chart. This documentation
                                                                              contains a signature but no name
                                                                              and credentials so Bravo Health
                                                                              obtained a signature attestation.

                                                                              Documentation submitted did
      Diabetes With Ophthalmologic or Unspecified                             not support HCC 18, therefore
123                                                               X
      Manifestation                                                           Bravo Health submitted a
                                                                              diagnosis attestation.

                                                                              Documentation submitted for
                                                                              the encounter dated 9/ 1/06
                                                                              supports HCC 19. This
124   Diabetes Without Complication                               X           documentation contains a
                                                                              signature but no name and
                                                                              credentials, so Bravo Health
                                                                              obtained a signature attestation.
                                                                              Documentation submitted did
      Diabetes \XIith Neurologic or Other Specified                           not support I ICC 16. Br.avo
125                                                           X
      l\1an.ifcstation                                                        Health was unable to obrain a
                                                                              diagnosis attestation.
                                                                              Documentation submitted for
                                                                              the encounter dated 5/20/06 is a
126   Intestinal Obstruction/ Perforation                     X
                                                                              radiology report that supports
                                                                              HCC31.
                                                                              Documenration submitted did
127   Vascular Disease With Complications                     X               not support HCC 104 but did
                                                                              support a lower HCC 105.




                                                      33 

                                                                                                            Page 34 of37




                                                            Dr aft Report
                                                             F indi n g•o
                                                                                  Bravo Health
      tHee                                              A        B    e            R esponse
                                                                            Documentation submitted for
                                                                            the encounter dated 8/23/06
                                                                            supports HCC 9. The
                                                                            documentation (rom 8/23/ 06
                                                                            notes "large left sided cervical
      Lymphatic, I lead and Neck, Brain, and Other
128                                                          X              schwannoma". Additional
      Major Cancers
                                                                            documentation from 8/29/06
                                                                            notes "triangle brachial plexus
                                                                            tumor" and from 11/8/06 notes
                                                                            "desmoid rumor in the neck that
                                                                            will require extensive radiation".
                                                                            Documentation submitted for
                                                                            the encounter dated 8/23/06
                                                                            supports HCC 10. Bravo Health
                                                                            also submitted a diagnosis
      Breast, Prostate, Colorectal, and Other Cancers
129                                                          X              attestation for this HCC. The
      and Tumors
                                                                            same documentation that
                                                                            supports HCC 9 supports HCC
                                                                            10 since they are in the same
                                                                            hierarchy.

                                                                            Documentation submitted did
                                                                            not support HCC 108, therefore
130   Chronic Obsttuctive Puhnonary Disease                  X   X
                                                                            BraV'o Health submitted a
                                                                            diagnosis attestation.

                                                                            Documentation submitted for
                                                                            the encounter dated l /21J/06 is a
131   Cardiorespiratory Failure and Shock                    X
                                                                            radiology report that supports
                                                                            HCC79.

                                                                            Documentation submitted for
                                                                            the encounter dated 11/17/06 is
132   Ischemic or Unspecified Stroke                         X
                                                                            a radiology reporc that supports
                                                                            HCC96.

                                                                            Documentation submitted for
                                                                            the encounter dated 10/25/06
                                                                            supports HCC 105. This
133   Vascular Disease                                           X          documentation contains a
                                                                            signature but no name and
                                                                            credentials so Bravo Health
                                                                            obtained a signature attestation.




                                                     34 

                                                                                                         Page 35 of37




                                                        Draft Report
                                                            Findi ngiO
                                                                               Bravo Health
       HCC                                              A       B    c          Response
                                                                         Documentation submitted for
                                                                         the encounter dated 6/5/06
                                                                         supports HCC 105. The
 134   Vascular Disease                                     X            documentation notes code
                                                                         "443.9" within the clinical patient
                                                                         profile. The diagnosis code has
                                                                         been noted by a MD.

                                                                         Documentation submitted did
                                                                         not suppon HCC 71, therefore
 135   Polyneuropathy                                       X
                                                                         Bravo Health submitted a
                                                                         diagnosis attestation.

                                                                         Documentation submitted did
                                                                         not support HCC 92, therefore
 136   Specified Heart A.uhythmias                          X
                                                                         Bravo Health submitted a
                                                                         diagnosis attestation.
                                                                         Documentation submitted did
                                                                         not support HCC 105, therefore
 137   Vascular D isease                                    X
                                                                         Bravo Health submitted a
                                                                         diagnosis attestation.
       Lung, UppeT Digestive Tract, and Other Severe                     Documentation submitted did
 138                                                        X
       Cancers                                                           not suppon the HCC.

                                                                         Documentation submitted did
                                                                         not support HCC 54. Bravo
                                                                         Health was unable to obtain a
 139   Schizophrenia                                        X   X
                                                                         diagnosis attestation as the
                                                                         doctor moved offices and unable
                                                                         to be located.




V.     Conclusion
       For the reasons set forth above, Bravo Health disagrees with the Draft
Report's finding that 139 HCCs were unsupported and with the recommendation
that Bravo Health should refund to the Federal Government $20,212,876 in alleged
overpayments. With respect to the Draft Report's recommendation regarding Bravo
Health's policies and procedures, Bravo Health has implemented several
enhancements to the policies and procedures that were in effect during the calendar
year 2007 payment period. In addition, Bravo Health will continue to evaluate its
policies and procedures for appropriate improvements consistent with CMS
requirements and expectations.

                                                   35
                                                                                     Page 36 of37




       It is Bravo Health's expectation that, in accordance with government
auditing standards, the OIG will thoroughly review this response so that any final
report that is issued reflects due consideration of Bravo Health's response and is not
simply an automatic finalization of the Draft Report.

      Please contact Scott Tabakin at 410-864-4646 if you have any questions or
require additional information.



                                       Sincerely,




                                       Scott M. Tabakin
                                       EVP & Chief Financial Officer


Enclosures




                                          36
                                                                             Page 37 of37




                                  List of Exhibits



Exhibit 1 
              Bravo Health email to OIG dated January 12, 2009

Exhibit 2 
               OIG email to Bravo Health dated July 10, 2009

Exhibit 3 
              Bravo Health letter to OIG dated June 30, 2009

Exhibit 4 
               Physician Signature Attestations*

Exhibit 5 
               rnternal Bravo Health email dated March 6, 2009

Exhibit 6 
               Diagnosis Attestations*

Exhibit 7 
               Sample Bravo Health Personal Health Profile Form




* Exhibits 4 and 6 are being provided via an encrypted disc.




                                         37 

